<html>
<title> - BORDER SECURITY THREATS TO THE HOMELAND: DHS' RESPONSE TO INNOVATIVE TACTICS AND TECHNIQUES</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 
 BORDER SECURITY THREATS TO THE HOMELAND: DHS' RESPONSE TO INNOVATIVE 
                         TACTICS AND TECHNIQUES

=======================================================================


                                HEARING

                               before the

                       SUBCOMMITTEE ON BORDER AND

                           MARITIME SECURITY

                                 of the

                     COMMITTEE ON HOMELAND SECURITY

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                             JUNE 19, 2012

                               __________

                           Serial No. 112-98

                               __________

       Printed for the use of the Committee on Homeland Security
                                     

[GRAPHIC] [TIFF OMITTED] CONGRESS.#13

                                     

      Available via the World Wide Web: http://www.gpo.gov/fdsys/

                               __________



                  U.S. GOVERNMENT PRINTING OFFICE
79-505                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



                     COMMITTEE ON HOMELAND SECURITY

                   Peter T. King, New York, Chairman
Lamar Smith, Texas                   Bennie G. Thompson, Mississippi
Daniel E. Lungren, California        Loretta Sanchez, California
Mike Rogers, Alabama                 Sheila Jackson Lee, Texas
Michael T. McCaul, Texas             Henry Cuellar, Texas
Gus M. Bilirakis, Florida            Yvette D. Clarke, New York
Paul C. Broun, Georgia               Laura Richardson, California
Candice S. Miller, Michigan          Danny K. Davis, Illinois
Tim Walberg, Michigan                Brian Higgins, New York
Chip Cravaack, Minnesota             Cedric L. Richmond, Louisiana
Joe Walsh, Illinois                  Hansen Clarke, Michigan
Patrick Meehan, Pennsylvania         William R. Keating, Massachusetts
Ben Quayle, Arizona                  Kathleen C. Hochul, New York
Scott Rigell, Virginia               Janice Hahn, California
Billy Long, Missouri                 Vacancy
Jeff Duncan, South Carolina
Tom Marino, Pennsylvania
Blake Farenthold, Texas
Robert L. Turner, New York
            Michael J. Russell, Staff Director/Chief Counsel
               Kerry Ann Watkins, Senior Policy Director
                    Michael S. Twinchek, Chief Clerk
                I. Lanier Avant, Minority Staff Director
                                 ------                                

              SUBCOMMITTEE ON BORDER AND MARITIME SECURITY

                Candice S. Miller, Michigan, Chairwoman
Mike Rogers, Alabama                 Henry Cuellar, Texas
Michael T. McCaul, Texas             Loretta Sanchez, California
Paul C. Broun, Georgia               Sheila Jackson Lee, Texas
Ben Quayle, Arizona, Vice Chair      Brian Higgins, New York
Scott Rigell, Virginia               Hansen Clarke, Michigan
Jeff Duncan, South Carolina          Bennie G. Thompson, Mississippi 
Peter T. King, New York (Ex              (Ex Officio)
    Officio)

                      Paul Anstine, Staff Director
                   Diana Bergwin, Subcommittee Clerk
            Alison Northrop, Minority Subcommittee Director


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Candice S. Miller, a Representative in Congress 
  From the State of Michigan, and Chairwoman, Subcommittee on 
  Border and Maritime Security:
  Oral Statement.................................................     1
  Prepared Statement.............................................     3
The Honorable Henry Cuellar, a Representative in Congress From 
  the State of Texas, and Ranking Member, Subcommittee on Border 
  and Maritime Security:
  Oral Statement.................................................     5
  Prepared Statement.............................................     6
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Ranking Member, Committee on 
  Homeland Security:
  Prepared Statement.............................................     6

                               Witnesses

Ms. Donna A. Bucella, Assistant Commissioner, Office of 
  Intelligence and Investigative Liaison, U.S. Customs and Border 
  Protection, Department of Homeland Security:
  Oral Statement.................................................     8
  Prepared Statement.............................................     9
Mr. James A. Dinkins, Executive Associate Director, Homeland 
  Security Investigations, U.S. Immigration and Customs 
  Enforcement, Department of Homeland Security:
  Oral Statement.................................................    15
  Prepared Statement.............................................    16
Mr. William D. Lee, Deputy for Operations Policy & Capabilities, 
  U.S. Coast Guard, Department of Homeland Security:
  Oral Statement.................................................    23
  Prepared Statement.............................................    25
Mr. Charles D. Michel, Director, Joint Interagency Task Force-
  South:
  Oral Statement.................................................    27
  Prepared Statement.............................................    29


 BORDER SECURITY THREATS TO THE HOMELAND: DHS' RESPONSE TO INNOVATIVE 
                         TACTICS AND TECHNIQUES

                              ----------                              


                         Tuesday, June 19, 2012

             U.S. House of Representatives,
                    Committee on Homeland Security,
              Subcommittee on Border and Maritime Security,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:00 a.m., in 
Room 311, Cannon House Office Building, Hon. Candice S. Miller 
[Chairwoman of the subcommittee] presiding.
    Present: Representatives Miller, Rogers, McCaul, Duncan, 
Cuellar, Jackson Lee, and Clarke.
    Mrs. Miller. The Committee on Homeland Security, 
Subcommittee on Border on Maritime Security will come to order. 
The subcommittee is meeting today to examine the Department of 
Homeland Security's response to border security threats.
    Our witnesses today are Donna Bucella, assistant 
commissioner of CBP's Office of Intelligence and Investigation 
Liaison; James Dinkins, the executive associate director of 
Homeland Security Investigations at U.S. Immigrations and 
Customs Enforcement; Rear Admiral William Lee, deputy for 
operations policy and capabilities, from the United States 
Coast Guard; and Rear Admiral Charles Michel, director of the 
Joint Interagency Task Force-South.
    When it comes to securing our border the old military adage 
that no plan survives contact with the enemy is, or should be, 
at the forefront of our minds. As the Department of Homeland 
Security has increased its presence along the Southwest Border, 
drug cartels, human smugglers, and illegal aliens have adapted 
and improvised to defeat our security measures.
    In the mid-1990s, ground zero for illegal migration 
centered in California and Texas, until the Border Patrol 
devised new campaigns, like Operation Gatekeeper and Operation 
Hold the Line. During those operations the Border Patrol surged 
capability to meet a specific threat, but early on observers 
realized that this would create a balloon effect, where a surge 
in one area would just displace the flow of drugs and migrants 
to other more rural areas of the country.
    Human beings naturally seek the path of least resistance, 
so when word got out about the increased enforcement posture in 
California and Texas smuggling routes shifted to the western 
desert of Arizona, and today the Tucson sector sees the 
majority of crossings and nets large seizures of drugs. This 
was true even before the recent economic downturn reduced the 
total number of crossings Nation-wide.
    Congress has poured resources into Arizona, spent billions 
on technology, beefed up the number of agents to historic 
levels, and heavily invested in infrastructure. Most of those 
investments enhance our capabilities to detect, to deter, and 
to interdict drugs and people who try to cross the border, as 
well as funnel people into areas that give the Border Patrol a 
greater chance to catch those who would otherwise succeed.
    But will the increased investment in Arizona mean that 
other areas of the Southwest Border will become more heavily 
trafficked by drug cartels and illegal immigrants, and more 
importantly, are CBP and DHS prepared to adjust as the threats 
change and as new tactics are used?
    People who want to cross the border aren't static. They 
watch our agents; they perform counter-surveillance; and they 
try to find gaps in our patrols and develop new, innovative 
ways to bring people, illicit proceeds, or their product across 
the border.
    Over the last few years we have seen a proliferation of 
complex border tunnels used in urban areas, ultralight 
aircraft, and small fishing vessels, called panga boats, which 
are being discovered farther up the California coast and which 
attempt to blend in with normal traffic.
    What is very concerning to this committee is the threat 
posed by semi-submersible submarines that can carry tons of 
cocaine, as well as recent discoveries of fully-submersibles, 
which can be used to carry drugs or something even worse to our 
shores. That is why this committee has continued to call for a 
comprehensive plan to secure the border. Ad hoc developments 
of--or deployments of resources to plug a hole or address a gap 
that exists today without thinking about the drug cartels' next 
move has to be replaced with a more comprehensive analysis that 
anticipates weaknesses that our adversary may try to exploit as 
a result of our response.
    The cartels have billions of dollars at their disposal and 
a powerful incentive--to make as much money as they can--to 
succeed in bringing drugs or human beings into our country. If 
a cartel can smuggle drugs and people into our country we have 
to recognize that as an avenue the terrorist could exploit as 
well. CBP, ICE, and the U.S. Coast Guard, and our partners over 
at the Department of Defense have to be just as nimble and 
agile, otherwise the cartels will out-innovate and out-think us 
every time.
    As I have called for--as this committee has called for a 
much more comprehensive approach from the Department we are 
very interested to see how well the Customs and Border 
Protection Joint Field Command, which integrates several of the 
DHS components to tackle the challenge in Arizona, is part of 
the solution to address the complex nature of the border 
threat, and if the Joint Field Command concept could work 
elsewhere as the situation requires.
    One of the more encouraging elements of the recently 
released border patrol strategy was an emphasis on the use of 
intelligence as well as a more risk-based approach. Using intel 
to detect patterns of illegal migration to better direct our 
agents in the field makes very, very good sense. A risk-based 
approach which utilizes intelligence also relies heavily on 
technology. While we certainly understand technology is not a 
panacea for solving all the problems along the border I do--and 
I think the committee feels, as well--that it can certainly 
help the Department better direct its limited resources.
    We are very encouraged by the use of new technology, such 
as the Vehicle and Dismount Exploitation Radar, commonly called 
VADER, with a wide-area surveillance tool installed on CBP's 
UAVs that can detect the movement of both people and vehicles 
in the desert. This tool is extremely valuable as CBP seeks to 
identify and detect changing smuggling patterns.
    We hope that we can continue to identify and use emerging 
technology to expand our ability to monitor and to gain control 
of the border. The primary purpose of this hearing today, this 
morning, is not only to examine the many threats to our border 
security but to DHS's ability to confront them, and of course, 
we don't want to be reactive but we want to be proactive when 
we take steps to better secure our border.
    One of the more serious threats to border security is the 
idea that we are less than fully committed to enforcing our 
Nation's immigration laws. As reported in the Washington Times, 
there is quite a bit of concern that CBP is considering a new 
policy to give enforcement discretion to Border Patrol agents 
and CBP officers in the field.
    Moving forward, we are certainly going to be closely 
monitoring policy developments and we will ask that the 
Department fully explain any change in their border enforcement 
policy.
    Again, we want to thank the very distinguished panel that 
we have today of our witnesses. We look forward to their 
testimony.
    [The statement of Mrs. Miller follows:]
               Statement of Chairwoman Candice S. Miller
                             June 19, 2012
    When it comes to securing our border, the old military adage that 
no plan survives contact with the enemy is, or should be, at the 
forefront of our minds.
    As DHS has increased its presence on the Southwest Border, drug 
cartels, human smugglers, and illegal aliens have adapted and 
improvised to defeat our security measures.
    In the mid-1990s, ground zero for illegal migration centered in 
California and Texas until the Border Patrol devised new campaigns--
Operation Gatekeeper and Operation Hold the Line.
    During those operations, the Border Patrol surged capability to 
meet a specific threat, but early on, observers realized this would 
create a balloon effect, where a surge in one area would just displace 
the flow of drugs and migrants to other, more rural areas of the 
country.
    Human beings naturally seek the path of least resistance, so when 
word got out about the increased enforcement posture in California and 
Texas, smuggling routes shifted to the western desert of Arizona--not 
exactly the most hospitable place to cross the border.
    Today, the Tucson sector sees the majority of crossings and nets 
large seizures of drugs. This was true even before the recent economic 
downturn reduced the total number of crossings Nation-wide.
    Congress has poured resources into Arizona--spent billions on 
technology, beefed up the number of agents to historic levels, and 
heavily invested in infrastructure.
    Most of those investments enhanced our capabilities to detect, 
deter, and interdict drugs and people who try to cross the border, as 
well as funnel people into areas that give the Border Patrol a greater 
chance to catch those who would otherwise succeed.
    But will the increased investment in Arizona mean that other areas 
of the Southwest Border will become more heavily trafficked by drug 
cartels and illegal immigrants?
    More importantly are CBP and DHS prepared to adjust as the threats 
change and as new tactics are used?
    People who want to cross the border aren't static; they watch our 
agents, perform counter surveillance, and try to find gaps in our 
patrols, and develop new inventive ways to bring people, illicit 
proceeds, or their ``product'' across the border.
    Over the last few years we've seen a proliferation of complex 
border tunnels used in urban areas, ultra light aircraft, and small 
fishing vessels called panga boats which are being discovered farther 
up the California coast and attempt to blend in with normal traffic.
    What is most concerning to me is the threat posed by semi-
submersible submarines that can carry tons of cocaine, as well as 
recent discoveries of fully submersibles which can be used to carry 
drugs, or something even worse to our shores.
    That is why I have been, and continue to call for a comprehensive 
plan to secure the border.
    Ad hoc deployments of resources to plug a hole, or address a gap 
that exists today without thinking about the drug cartel's next move 
has to be replaced with a more comprehensive analysis that anticipates 
weaknesses that our adversary may try to exploit as a result of our 
response.
    The cartels have billions of dollars at their disposal and a 
powerful incentive--to make as much money as they can--to succeed in 
bringing drugs or human beings into the country.
    If a cartel can smuggle drugs and people into the country, we have 
to recognize that as an avenue that terrorists could exploit as well.
    CBP, ICE, the U.S. Coast Guard and our partners over at the 
Department of Defense have to be just as nimble and agile, otherwise 
the cartels will out-innovate and out-think us every time.
    As I have called for such a more comprehensive approach from the 
Department, I am very interested to see how well the Customs and Border 
Protection Joint Field Command which integrates several of the DHS 
components to tackle the challenge in Arizona is part of the solution 
to address the complex nature of the border threat and if the Joint 
Field Command concept could work elsewhere as the situation requires.
    One of the more encouraging elements of the recently-released 
Border Patrol strategy was an emphasis on the use of intelligence as 
well as a more risk-based approach. Using intelligence to detect 
patterns of illegal migration to better direct our agents in the field 
makes sense.
    A risk-based approach which utilizes intelligence also relies 
heavily on technology. While I understand technology is not a panacea 
to solving all problems along the border, I do think it can help DHS 
better direct its limited resources.
    I am encouraged by the use of new technology, such as Vehicle and 
Dismount Exploitation Radar, commonly called VADER, a wide-area 
surveillance tool installed on CBP UAVs that can detect the movement of 
both people and vehicles in the desert.
    I understand this tool is extremely valuable as CBP seeks to 
identify and detect changing smuggling patterns. My hope is that we can 
continue to identify and use emerging technology to expand our ability 
to monitor and gain control of the border.
    The primary purpose of this hearing today is not only to examine 
the many threats to our border security, but DHS' ability to confront 
them, and instead of being reactive, be proactively taking steps to 
better secure the border.
    One of the more serious threats to border security is the idea that 
we are less than fully committed to enforcing our Nation's immigration 
laws.
    As reported in the Washington Times, I am concerned CBP is 
considering a new policy to give enforcement discretion to Border 
Patrol agents and CBP officers in the field.
    Such discretion would make a mockery of our recent efforts to 
secure the border, and attach consequences to repeat crossers and 
smugglers.
    Moving forward I will be closely monitoring policy developments, 
and will ask that the Department fully explain any change in our border 
enforcement posture.
    Again, I want to thank the distinguished panel of witnesses and I 
look forward to their testimony.

    Mrs. Miller. At this time the Chairwoman now recognizes the 
Ranking Member from Texas, Mr. Cuellar, for his opening 
statement.
    Mr. Cuellar. Thank you, Madam Chairwoman. Thank you, again, 
for holding today's hearing.
    I would like to thank all of our witnesses for being here 
today, and thank you for your presence here and also for your 
testimony.
    The purpose of this hearing is to examine how the 
Department of Homeland Security is working to combat the ever-
changing security threats along our border. Being a resident of 
the border down there in South Texas and a member of this 
committee I have had the opportunity to see first-hand the good 
work that DHS, Coast Guard, the other folks here have been 
doing down there on the border. In recent years DHS has made 
enormous investment in the border security personnel, 
technology, and infrastructure, and there is evidence that it 
is--their work is paying off, but we do know that we can do 
better and we need to continue working down there on the 
border--again, not only the southern, northern, but the 
maritime border also.
    However, these efforts are being met by efforts of drug-
trafficking organizations which seemingly possess unlimited 
resources and funds. As law enforcement has better secured drug 
smugglers' usual routes along our border the drug-trafficking 
organizations began to use alternative means to move 
contraband--not only the contraband drugs but also human 
trafficking also.
    These alternative methods include construction of border--
cross-border tunnels, and the subterranean passageways, and 
increased use of ultralight aircrafts to get the contraband 
into this country undetected. Similarly, the maritime 
environment has seen the increase in the use of panga boats, 
self-propelled semi-, fully-submersible vessels for drug 
trafficking.
    I would like to hear from our witnesses today about their 
experiences with these illegal tactics and what we can do to 
further enhance their work for combating drug trafficking. 
Newest efforts along the Southern Border have continued and 
will continue to receive a great deal of attention but we 
cannot forget the threats to our border also on the northern 
and, of course, the maritime also.
    As Members of the Homeland Security Committee we know 
securing America's border and communities from drug trafficking 
efforts is an enormous task. I look forward to hearing more 
about how we can promote the cooperation, coordination in the 
interest of safety in order to secure our Nation.
    One of the things I will--I would like to emphasize, also, 
is the results-oriented approach. I know we have invested 
billions of dollars on border security, if you look at the 
amount of dollars that we have invested, and one of the things 
that we will be asking a lot more in the future is, ``What is 
the bang for the dollars? What are the performance measures? 
How do you measure what we are doing?'' Because again, you can 
throw money, and throw money, and billions of dollars that we 
have put there, but we want to see what the results are that we 
are getting for that.
    So to all of you all, thank you very much. Look forward to 
working with y'all, and thank you for this dialogue.
    With that, I yield back the balance of my time.
    [The statement of Ranking Member Cuellar follows:]
               Statement of Ranking Member Henry Cuellar
                             June 19, 2012
    The purpose of this hearing is to examine how the Department of 
Homeland Security is working to combat the ever-changing security 
threats along our borders.
    As a life-long resident of Laredo, Texas, and a Member of this 
committee, I have had the opportunity to see first-hand the good work 
that DHS is doing along our borders.
    In recent years, DHS has made an enormous investment in border 
security personnel, technology, and infrastructure, and there is 
evidence their work is paying off.
    However, these efforts are being met by the efforts of drug 
trafficking organizations, which seemingly possess unlimited resources 
and funds.
    As law enforcement has better secured drug smugglers' usual routes 
across our borders, the drug trafficking organizations have begun to 
use alternative means to move contraband.
    These alternative methods include the construction of cross-border 
tunnels and subterranean passageways, and increased use of ultralight 
aircrafts to get their contraband into this country undetected.
    Similarly, the maritime environment has seen an increase in the use 
of panga boats, self-propelled semi- and fully-submersible vessels for 
drug trafficking.
    I would like to hear from our witnesses today about their 
experiences with these illegal tactics, and what we could do to further 
enhance their work combating drug trafficking.
    U.S. efforts along the Southern Border have and continue to receive 
a great deal of attention, but we cannot forget that there are threats 
to all of our borders--Northern, Southern, and maritime.
    As Members of the Committee on Homeland Security, we know securing 
America's borders and communities from drug trafficking, and its 
effects, is an enormous task.
    I look forward to hearing more about how we can promote that 
cooperation and coordination in the interest of the safety and security 
of our Nation.
    I appreciate the opportunity to participate in today's hearing and 
look forward to what I hope will be a very worthwhile dialogue.

    Mrs. Miller. Thank the gentleman very much. Other Members 
are reminded that their testimony may be submitted for the 
record.
    [The statement of Ranking Member Thompson follows:]
        Prepared Statement of Ranking Member Bennie G. Thompson
    Today, the subcommittee is examining the Department of Homeland 
Security's response to tactics used by smugglers and traffickers who 
seek to cross our Nation's borders.
    The Department of Homeland Security has made unprecedented efforts 
to better secure our borders in recent years, with the support of 
Congress.
    In response, cartels and other criminal organizations are 
exploiting different methods to bring their contraband into this 
country.
    For example, these organizations may seek to use semi- or fully-
submersible vessels to move their narcotics from the source zones in 
Latin America closer to their destination in the United States.
    They may build or exploit existing border tunnels to evade the 
Border Patrol and secret their drugs into the country.
    Or they may seek to bring drugs into the United States via boat 
from Mexico, landing on the coast of California rather than risking 
detection attempting to come across the land border.
    It is important to understand the various methods being used by 
these smuggling and trafficking organizations, to try to stay a step 
ahead of them.
    At the same time, it is worth stating that many of these so-called 
``innovative'' tactics and techniques are neither new nor unknown to 
DHS and other law enforcement.
    Furthermore, these tactics represent only a small part of the 
smuggling and trafficking threat to the United States.
    The overwhelming majority of illegal narcotics still enter the 
United States either hidden in vehicles or on individuals coming 
through our ports of entry, or are smuggled through traditional means 
between the ports of entry.
    DHS needs to combat these unusual tactics, but must also keep them 
in perspective if we are to be successful in addressing the broader 
problem.
    I look forward to hearing from our witnesses today about how their 
agencies are working to address border security threats, with an 
emphasis on the communication and coordination among agencies.
    I am particularly pleased to have Admiral Michel of Joint 
Interagency Task Force-South with us today.
    I have had the opportunity to be briefed at JIATF-South and see the 
work the men and women of that interagency organization are doing in 
conjunction with their counterparts at DHS and across the Federal 
Government.
    I look forward to an update on their efforts and a frank discussion 
about the challenges they face.
    Finally, I would note that I was disappointed that Gen. Michael 
Kostelnik, the Assistant Commissioner for CBP Air and Marine, is not 
appearing at today's hearing as originally planned.
    One of the key ways DHS has attempted to respond to border security 
threats over the last decade is through the acquisition and deployment 
of costly Unmanned Aircraft Systems (UASs).
    I had hoped to discuss with Gen. Kostelnik some rather troubling 
conclusions reached by the DHS Inspector General in a recent report on 
CBP's use of UASs and their usefulness along our borders.
    It is my understanding that he will instead appear before another 
of the committee's subcommittees later this week, at which time I hope 
to address this important issue with him.

    Mrs. Miller. I will just introduce all the witnesses and 
then we will start with Ms. Bucella.
    Donna Bucella is the assistant commissioner of CBP's Office 
of Intelligence and Investigative Liaison. She has an extensive 
background in law enforcement, terrorist screening, and 
security, including having served as the first director of the 
Terrorist Screening Center at the FBI.
    Ms. Bucella directed the first consolidation of all 
terrorist watch lists and developed the coordination of 
antiterrorism efforts between law enforcement, the military, 
DHS, the private sector, and the intelligence community. She 
has also served in the United States Army and retired at the 
rank of colonel.
    James Dinkins is the executive associate director of 
Homeland Security Investigations at the U.S. Immigration and 
Customs Enforcement. In this role he has direct oversight of 
ICE's investigative and enforcement initiatives and operations 
targeting cross-border criminal organizations that exploit 
Americans--America's legitimate travel, trade, financial, and 
immigration systems for their illicit purposes.
    Rear Admiral William Lee is the deputy for operations 
policy and capabilities for the United States Coast Guard. In 
this role he oversees integration of all operations, 
capability, strategy, and resource policy. He spent 13 years in 
six different command assignments and spent a career 
specializing in boat operations and search and rescue.
    Rear Admiral Charles Michel is the director of the Joint 
Interagency Task Force-South. In that role he is responsible 
for detection, monitoring, and interdiction of illicit 
trafficking and other narcoterrorist threats within the task 
force area of responsibility. Previously he served as the 
military advisor to the secretary of Homeland Security and 
director for governmental and public affairs for the United 
States Coast Guard.
    So we have a fantastic lineup of witnesses today and we 
certainly are looking forward to all of your testimony.
    The Chairwoman now recognizes Ms. Bucella for her opening 
statement.

 STATEMENT OF DONNA A. BUCELLA, ASSISTANT COMMISSIONER, OFFICE 
  OF INTELLIGENCE AND INVESTIGATIVE LIAISON, U.S. CUSTOMS AND 
       BORDER PROTECTION, DEPARTMENT OF HOMELAND SECURITY

    Ms. Bucella. Thank you.
    Chairman Miller, Ranking Member Cuellar, it is a pleasure 
to appear before you today to discuss United States Customs and 
Border Protection's efforts to secure our Nation's border. As 
America's front-line border agency CBP is responsible for 
securing America's borders against threats while facilitating 
legitimate trade and travel. To do this we have employed a 
multi-layered, risk-based approach which reduces our reliance 
on any single point or program that could be compromised. It 
also extends our zone of security outward, ensuring that our 
physical border is not the first or the last defense, but one 
of many.
    The result of this prioritization to the border and our 
layered approach to security are clear. In fiscal year 2011 
Border Patrol apprehensions along the Southwest Border 
decreased 53 percent since fiscal year 2008. We matched these 
decreases in apprehensions with increases in seizures of cash, 
drug, and weapons. In fiscal year 2011 CBP seized more than 
$126 million in illegal currency and nearly 5 million pounds of 
narcotics Nation-wide.
    At the same time, according to the 2010 FBI crime reports, 
violent crime in the Southwest Border States dropped by an 
average of 40 percent in the last 2 decades. Every measure we 
are making significant progress.
    However, we must remain vigilant and focus on building upon 
an approach that puts CBP's greatest capabilities in place to 
combat the greatest risks. We acknowledge there is still much 
more work to do. We remain concerned about the drug cartel 
violence taking place in Mexico and continue to stand vigilant 
against the possibility of spillover effects in the United 
States.
    To meet these challenges of the complex environments in 
which we operate and address the evolving smuggling techniques 
we encounter CBP monitors, collects, analyzes, and produces 
intelligence reporting on drug smuggling tactics, techniques, 
and procedures. In addition, we disseminate information to and 
from our law enforcement and international partners to CBP 
operational components.
    Due to increased CBP land and air interdiction efforts 
against--along the U.S.-Mexico border, drug and human smuggling 
organizations are increasingly turning to maritime smuggling 
routes to transport contraband into the United States. Mexican 
smuggling organizations use a variety of methods to enter the 
United States via maritime routes, including the use of small, 
open vessels known as pangas. These wood or fiberglass homemade 
fishing vessels use their relatively high-speed and small radar 
signature capabilities under the cover of darkness in an 
attempt to evade detection by CBP and the United States Coast 
Guard.
    A recent trend identified off the California coast is a 
shift from using smaller pangas to using larger pangas that 
transit further out to sea and land and further up the 
California coast. To date, in fiscal year 2012 over 27,000 
kilos of marijuana have been seized in 37 maritime events.
    In addition to using pangas, the TCOs have also built and 
deployed self-propelled semi-submersible vessels in the Eastern 
Pacific and Western Caribbean. These vessels are designed to 
sit low in the water in an attempt to avoid detection by air 
and marine assets of the United States and our partner nations. 
In three separate incidents in 1-week period CBP's P-3 aircraft 
assisted in the interdiction of an SPSS and two vessels 
carrying at least 8,000 kilos of cocaine, for a combined street 
value of $1.3 billion.
    In addition, TCOs have also turned to using ultralights to 
fly across the Southwest Border and air-drop marijuana cargo to 
waiting ground crews. This fiscal year there have been 55 
confirmed ultralight events, resulting in 17 narcotic seizures, 
11 arrests, and two ultralights aircraft seized. Currently, 
CBP's Air and Marine Operation Center uses an extensive 
airspace monitoring capabilities as well as DOD and civilian 
radar capabilities to identify and track suspect ultralight 
aircraft.
    Tunnels are yet another method used smuggling drugs across 
the border. To date, there have been approximately 154 illicit 
cross-border tunnels discovered.
    When tunnels are detected each of the Southwest Border 
sectors follow established protocols, working closely with ICE, 
DEA, and FBI and the Tunnel Task Force. CBP hosts a weekly 
teleconference with our State and local partners regarding the 
current state of the Southern Border in order to monitor 
emerging trends and threats along the Southwest Border and 
provide a cross-component, multi-agency venue for discussing 
trends and threats. The weekly briefing focuses on CBP 
narcotics, weapons seizures, currency interdictions, and alien 
apprehensions, both at and between the ports of entry on the 
Southwest Border.
    Based on the success of the State of the Southern Border, 
CBP has implemented a State of the U.S.-Canadian Border 
teleconference. This monthly teleconference is produced 
collaboratively with RCMP and CBSA as well as with our law 
enforcement partners on both sides of the Canadian border. This 
has been well received.
    Chairman Miller, Ranking Member Cuellar, Members of the 
subcommittee, thank you for this opportunity to testify about 
the good work of CBP, and I look forward to answering any of 
your questions.
    [The statement of Ms. Bucella follows:]
                 Prepared Statement of Donna A. Bucella
                             June 19, 2012
                              introduction
    Chairman Miller, Ranking Member Cuellar, and distinguished Members 
of the subcommittee, it is a pleasure to appear before you today to 
discuss U.S. Customs and Border Protection's (CBP) efforts to secure 
our Nation's borders.
    As America's front-line border agency, CBP is responsible for 
securing America's borders against threats while facilitating legal 
travel and trade. To do this, CBP has deployed a multi-layered, risk-
based approach to enhance the security of our borders while 
facilitating the lawful flow of people and goods entering the United 
States. This layered approach to security reduces our reliance on any 
single point or program that could be compromised. It also extends our 
zone of security outward, ensuring that our physical border is not the 
first or last line of defense, but one of many.
    I would like to begin by recognizing those at the Department of 
Homeland Security (DHS) who have given their lives in service to our 
Nation. The loss of these brave agents and officers is a stark reminder 
of the sacrifices made by the men and women of DHS every day. It also 
strengthens our resolve to continue to do everything in our power to 
protect against, mitigate, and respond to threats and secure our 
border.
                  overview of border security efforts
    Over the past 3 years, the DHS has dedicated historic levels of 
personnel, technology, and resources in support of our border security 
efforts. Most recently, the President's fiscal year 2013 budget request 
continues these efforts by supporting the largest deployment of law 
enforcement officers to the front line in our agency's history: More 
than 21,300 Border Patrol agents; 1,200 Air and Marine agents; and 
21,100 CBP officers; working 24/7 with State, local, Tribal, and 
Federal law enforcement to target illicit networks trafficking in 
people, drugs, weapons, and money. Over the last year, we have brought 
greater unity to our enforcement efforts, expanded collaboration with 
other agencies, and improved response times.
    CBP has also deployed additional technology assets--including 
mobile surveillance units, thermal imaging systems, and large- and 
small-scale non-intrusive inspection equipment--along our Nation's 
borders. CBP currently has over 270 aircraft, including nine Unmanned 
Aircraft Systems (UAS) and more than 300 patrol and interdiction boats 
that provide critical aerial and maritime surveillance and operational 
assistance to personnel on the ground. The UAS program is rapidly 
changing how ground assets are deployed, supplying Border Patrol Agents 
with unparalleled situational awareness through the UAS's broad area 
electronic surveillance capabilities. Going forward, CBP will continue 
to integrate the use of these specialized capabilities into the daily 
operations of CBP's front-line personnel to enhance our border security 
efforts.
    The results of this prioritization to the border and our layered 
approach to security are clear. In fiscal year 2011, Border Patrol 
apprehensions along the Southwest Border--a key indicator of illegal 
immigration--decreased 53 percent since fiscal year 2008, and are less 
than one-fifth of what they were at their peak in 2000. We have matched 
these decreases in apprehensions with increases in seizures of cash, 
drugs, and weapons. During fiscal years 2009 through 2011, DHS seized 
74 percent more currency, 41 percent more drugs, and 159 percent more 
weapons along the Southwest Border as compared to fiscal year 2006-
2008. In fiscal year 2011, CBP seized more than $126 million in illegal 
currency and nearly 5 million pounds of narcotics Nation-wide. At the 
same time, according to 2010 Federal Bureau of Investigation (FBI) 
crime reports, violent crimes in Southwest Border States have dropped 
by an average of 40 percent in the last 2 decades.
    Every key measure shows we are making significant progress; 
however, we must remain vigilant and focus on building upon an approach 
that puts CBP's greatest capabilities in place to combat the greatest 
risks.
    We acknowledge that there is still work to do. We remain concerned 
about the drug cartel violence taking place in Mexico and continue to 
stand vigilant against the possibility of spillover effects in the 
United States. We will continue to assess the situation and support the 
investments in the manpower, technology, and resources that have proven 
so effective over the past 2 years in order to keep our borders secure 
and the communities along them safe.
    We are also concerned about the increasing influence of Mexican 
Drug Trafficking Organizations (DTOs) over U.S.-based gangs as a way to 
expand their domestic distribution process. Gang members are heavily 
involved in the domestic distribution of narcotics and, to a much 
lesser extent, the actual movement of contraband across the Southwest 
Border. The Mexican Mafia and Barrio Aztecas are two examples of U.S.-
based gangs with significant ties to Mexican DTOs that operate on both 
sides of the border. In an effort to combat the threat of transnational 
criminal gangs, CBP developed the Anti-Gang Initiative (AGI). The AGI 
is a multi-year strategic plan to combat transnational criminal gangs. 
It focuses on the effective management and coordination of CBP 
personnel, systems, and resources to detect, disrupt, and interdict 
criminal gang members and their illicit cross-border activities.
    The CBP Office of Intelligence and Investigative Liaison (OIIL) 
supports AGI efforts by facilitating the sharing of intelligence 
generated by multiple Federal, State, and local agencies. OIIL assets 
are embedded within both the Operations Section--Gangs located within 
the Special Operations Division at the Drug Enforcement Administration 
(DEA), and the FBI's Criminal Investigation Division. As a contributing 
member to both these operations, CBP has access to operational 
intelligence that is generated not only by the DEA, but also by our 
other law enforcement partners, including the FBI, U.S. Marshals 
Service, Bureau of Prisons, and U.S. Immigration and Customs 
Enforcement (ICE).
                     overview of smuggling methods
    CBP's mission is complex and challenging. Vast expanses of remote 
and rugged terrain between our ports of entry (POEs), coupled with the 
large volumes of trade and traffic at our POEs, are targeted for 
exploitation by smugglers and other cross-border criminal 
organizations. Smugglers use a wide range of ever-evolving methods to 
attempt to move their illicit goods into the United States both at and 
between our POEs, including the subterranean movement of contraband by 
way of tunnels. Smugglers move people, weapons, cash, narcotics and 
other contraband, which are concealed on people, in vehicles, in cargo, 
and on aircraft and marine vessels. On a typical day, CBP seizes more 
than 6,200 kilograms (13,700 pounds) of drugs and nearly $350,000 in 
undeclared or illicit currency. The Southwest Border is the primary 
entry point for cocaine, heroin, marijuana, and methamphetamine 
entering the United States.
    To meet the challenges of the complex environments in which we 
operate and address the evolving smuggling techniques we encounter, CBP 
monitors, collects, analyzes, and produces intelligence reporting on 
drug smuggling tactics, techniques, and procedures. In addition, our 
analysts disseminate information and intelligence to and from our 
Federal, State, local, Tribal, and international partners to CBP 
operational components. This reporting provides our field leadership 
and front-line personnel with a better understanding of the illicit 
transportation methods and concealment techniques they are likely to 
encounter. It also ensures our law enforcement partners are aware of 
the trends and techniques encountered by CBP.
    To detect this contraband in vehicles and other conveyances, CBP 
employs a wide range of interdiction methods to include behavioral 
observation, fiber-optic scopes, and non-intrusive inspection (NII) 
technologies, as well as the intuition of our well-trained officers and 
agents. NII technologies, to include large-scale X-ray and Gamma-ray 
imaging systems, are an important part of our layered enforcement 
strategy. These technologies are deployed at our Nation's air, sea, and 
land border POEs to screen and identify anomalies that may indicate the 
presence of contraband or other illegal materials. These NII 
technologies are force multipliers that enable us to scan or examine a 
larger portion of the people, conveyances, and cargo entering and 
exiting the United States for the presence of contraband, while 
continuing to facilitate the flow of legitimate trade and travel.
    NII technologies also give CBP the capability to perform thorough 
examinations of conveyances and cargo without having to resort to the 
more costly, time-consuming, and intrusive process of manual searches. 
NII technologies are also the only effective means of screening the 
large volume of rail traffic entering the United States from Mexico. 
CBP currently has eight rail imaging systems deployed to the Southwest 
Border commercial rail crossings. These rail systems currently provide 
CBP with the capability to image and scan 100 percent of all commercial 
rail traffic arriving in the United States from Mexico. The rail NII 
imaging technology is bi-directional, which provides CBP with the added 
capability to image southbound trains. In March 2009, CBP began 
conducting 100 percent outbound screening of rail traffic departing the 
United States for Mexico for the presence of contraband, such as 
explosives, weapons, and currency.
    Through funding received from the American Recovery and 
Reinvestment Act, CBP has procured one high-energy integrated rail 
replacement system for deployment to the Southwest Border. The system, 
a dual function radiography/radiation detection unit, is currently 
undergoing testing and evaluation. CBP anticipates deploying this 
system in the next few months.
    It is our assessment that CBP land and air interdiction efforts 
along the U.S.-Mexico border, drug and human smuggling and trafficking 
organizations are increasingly turning to maritime smuggling routes to 
transport contraband into the United States. Mexican smuggling 
organizations use a variety of methods to enter the United States via 
maritime routes, including the use of small open vessels known as 
``pangas.'' These small, wood or fiberglass, homemade fishing vessels 
use their relatively high speed and small radar signature capabilities 
under the cover of darkness to attempt to evade detection by CBP and 
U.S. Coast Guard (USCG) surface patrol vessels and patrol aircraft.
    A recent trend identified off the California coast is a shift from 
using smaller panga vessels that make quick cross-border dashes onto 
beach areas near San Diego to using larger pangas that transit further 
out to sea and land further up the California coast. These larger, 
higher-powered pangas often range in size up to 50 feet in length and 
are capable of carrying multi-ton loads of contraband.
    These pangas transit from locations south of the U.S.-Mexico border 
to smuggle humans and tons of contraband, primarily marijuana. One of 
the largest panga boats discovered to date, in April 2012, was 
discovered beached near Santa Barbara and found with trace amounts of 
cocaine. To date in fiscal year 2012, over 60,000 pounds of marijuana 
has been seized in 37 maritime events. Of these 37 events, 27 involved 
panga vessels originating from Mexico.
    CBP is taking the northern shift in California-based smuggling by 
panga vessels very seriously and is evaluating a number of options to 
aggressively address these tactics, including adding marine patrol 
aircraft and expanding our partnerships with State, local, and Federal 
law enforcement partners to base additional coastal marine patrol 
vessels in the area.
    Mexican smuggling organizations also use pleasure boats in a number 
of areas in an attempt to blend in with legitimate boaters and 
transport contraband during broad daylight. Smuggling operations using 
this technique rely on the sheer number of similar pleasure boats on 
U.S. waters on any given day to blend in.
    Another method of smuggling contraband into the United States via 
the marine environment is through the use of small commercial fishing 
and shrimping vessels in areas where there are commercial fishing 
fleets. Similar to the pleasure boat smuggling outlined above, this 
smuggling method relies on blending in with normal boating traffic in 
an effort to elude detection.
    Mexican smuggling organizations also attempt to transport 
contraband across rivers via high-speed vessels. The limited crossing 
distance in many areas means that these high-speed vessels can cross in 
a matter of seconds. To counter this threat, CBP has an array of 
vessels assigned to its riverine patrol stations, and also uses a 
variety of shore-side sensors and agents in high-threat areas.
    Given the wide variety of maritime smuggling threats posed by 
Mexican smuggling organizations, CBP uses a mix of coastal interceptor 
and riverine patrol vessels equipped with marine surface search radars 
and electro optic infrared sensors. These vessels and the CBP marine 
crews who operate them are in the water, identifying and intercepting 
pangas, go-fasts, and shark boats--pleasure and fishing boats used by 
Mexican smuggling organizations. Additionally, CBP Office of Air and 
Marine (OAM) uses an array of patrol aircraft equipped with marine 
search radars and electro optic infrared sensors to conduct periodic 
patrols of the maritime approaches to the United States.
    In addition to using pangas, the DTOs continue to build and deploy 
Self-Propelled Semi-Submersible (SPSS) vessels in the Eastern Pacific 
and Western Caribbean. These vessels are designed to sit low in the 
water in an attempt to avoid detection by the air and marine assets of 
the United States and our partner nations. In three separate incidents 
in a 1-week period, CBP OAM P-3 aircraft assisted in the interdiction 
of a SPSS carrying close to 14,000 pounds of cocaine, and two vessels 
carrying more than 4,400 pounds of cocaine with a combined street value 
of more than $1.3 billion.
    The OAM P-3 fleet has been an integral part of successful counter-
narcotics missions undertaken by the United States, operating in 
coordination with DEA and the Joint Interagency Task Force-South 
(JIATF-S). The P-3s patrol in a 42 million-square-mile area of the 
Western Caribbean and Eastern Pacific, known as the Source and Transit 
Zone, in search of drugs that are in transit toward United States' 
shores. The P-3s' distinctive detection capabilities allow highly-
trained crews to identify emerging threats well beyond the land borders 
of the United States. By providing surveillance of known air, land, and 
maritime smuggling routes in an area that is twice the size of the 
continental United States, the P-3s detect, monitor, and work with USCG 
partners to disrupt smuggling activities before they reach the shore.
    So far in fiscal year 2012, the P-3 patrols have continued to 
demonstrate success in interdicting smuggling attempts. In two separate 
incidents during late March and early April, CBP P-3 aircraft detected 
northbound go-fast vessels carrying bales of suspected contraband. In 
both instances, these vessels were stopped and boarded by partner-
nation law enforcement agencies, resulting in the combined seizure of 
more than 4,400 pounds of cocaine.
    To date in fiscal year 2012, P-3s operating out of Florida and 
Texas have assisted in seizures and disruptions totaling $4.6 billion. 
During fiscal year 2011, the P-3 fleet seized or disrupted more than 
148,000 pounds of cocaine valued at more than $11.1 billion.
    In addition to using proven and new maritime smuggling methods, 
DTOs have also turned to new methods of smuggling by air. One method 
that has emerged in recent years has been the use of ultralight 
aircraft. Under the cover of darkness, ultralights fly across the 
Southwest Border and airdrop marijuana cargo to waiting ground crews. 
The load size ranges from 200 to 220 pounds of marijuana. During fiscal 
year 2011, there were 101 confirmed ultralight events, with 28 
narcotics seizures, 16 arrests, and three ultralight aircraft seized. 
From October 1, 2011, through June 1, 2012, there were 55 confirmed 
ultralight events resulting in 17 narcotics seizures, 11 arrests, and 
two ultralight aircraft seized. Currently, the CBP Air and Marine 
Operations Center, located in Riverside, California, uses its extensive 
airspace monitoring capabilities, as well as the radar capabilities of 
the Department of Defense and civilian radar capabilities, to identify 
and track suspect ultralight aircraft incursions. CBP is also working 
to procure a radar solution specifically designed to detect ultralight 
aircraft.
    An additional smuggling method is the use of tunnels under the 
international border. The first tunnel was discovered by the U.S. 
Border Patrol in 1990, and CBP has seen an increase of tunneling 
activity in the past few years. As of March 31, 2012, there have been 
155 illicit cross-border tunnels discovered--154 along the Southwest 
Border and one discovered along the Northern Border near Lynden, 
Washington (July 2005). The tunnel threat consists of four categories 
of tunnels: Conduit, rudimentary, interconnecting, and sophisticated. 
When tunnels are detected, each Southwest Border sector follows 
established protocols for coordination, confirmation, assessment, 
investigation, exploitation, and remediation. On March 4, 2010, the 
Office of Border Patrol was designated the lead office of the CBP 
Tunnel Detection and Technology Program with program support from the 
CBP Office of Technology Innovation and Acquisition (OTIA). This 
program has worked to integrate the efforts of DHS, CBP, ICE-HSI, DHS 
Science and Technology Directorate (S&T), the Drug Enforcement 
Administration, and the Joint Task Force-North into a single entity 
that will address tunnel-related activities and technology.
    In November 2011, the San Diego Tunnel Task Force discovered two 
tunnels and seized 52 tons of marijuana. The first tunnel, discovered 
on November 15, 2011, was a sophisticated 400-yard underground cross-
border tunnel that was over 40 feet deep and was equipped with rail, 
lighting, and ventilation systems. The discovery of this tunnel 
resulted in the seizure of 18 tons of marijuana. The second tunnel, 
which was discovered on November 29, 2011, was also a sophisticated 
tunnel equipped with lighting and ventilation systems. This tunnel 
discovery resulted in the seizure of 34 tons of marijuana. The two 
discoveries are the result of collaboration between CBP, ICE, and DEA 
along with other agencies, and the use of state-of-the-art electronic 
surveillance technology to investigate cross-border smuggling by 
criminal organizations.
    During fiscal year 2012 (through March 31, 2012), 11 additional 
tunnels were detected--all along the Southwest Border--with six 
discoveries in the San Diego Sector and five discoveries in the Tucson 
Sector.
                  working together to thwart smuggling
    In addition to the tools that CBP uses to thwart smuggling 
attempts, CBP works with our Federal, State, local, Tribal and 
international partners to address smuggling along the Southwest Border 
and to combat transnational threats.
    CBP hosts a weekly briefing/teleconference with State and local 
partners regarding the current state of the border, in order to monitor 
emerging trends and threats along the Southwest Border and provide a 
cross-component, multi-agency venue for discussing trends and threats.
    The weekly briefing focuses on CBP narcotics, weapons, and currency 
interdictions and alien apprehensions both at and between the POEs 
across the Southwest Border. These briefings/teleconferences currently 
include participants from: U.S. Coast Guard; DEA; FBI; ICE; U.S. 
Northern Command; Joint Interagency Task Force-North; Joint Interagency 
Task Force-South; Bureau of Alcohol, Tobacco, Firearms, and Explosives; 
U.S. Attorneys' Offices; Canada Border Services Agency; Naval 
Investigative Command; State Fusion Centers; and local law enforcement.
    Based on the success of the State of the Southwest Border briefing/
teleconference, CBP implemented a State of the U.S./Canada Border 
briefing and teleconference. This monthly teleconference is produced 
collaboratively with our Royal Canadian Mounted Police and Canadian 
Border Services Agency partners, and has been well received by law 
enforcement agencies on both sides of our border with Canada.
    Moreover, CBP has increased partnerships with Federal, State, 
local, and Tribal law enforcement agencies and our Mexican 
counterparts, as well as with the public and private sectors. 
Coordination and cooperation among all entities that have a stake in 
our mission have been, and continue to be, paramount to an effective 
Southwest Border strategy. CBP is working closely with Federal, State, 
local, Tribal, and international partners to increase intelligence and 
information sharing. A Processing, Exploitation, and Dissemination cell 
has been established at the OAM facilities in Riverside, California, 
and Grand Forks, North Dakota, to provide essential information to law 
enforcement across the Nation--increasing understanding of evolving 
threats and providing the foundation for law enforcement entities to 
exercise targeted enforcement in the areas of greatest risk. This 
intelligence-driven approach prioritizes emerging threats, 
vulnerabilities, and risks, which greatly enhances our border security 
efforts.
    An example of our collaborative efforts along the Southwest Border 
is the Alliance to Combat Transnational Threats (ACTT) in Arizona. ACTT 
is a collaborative enforcement effort, established in September 2009, 
that leverages the capabilities and resources of more than 60 Federal, 
State, local, and Tribal agencies in Arizona and of agencies of the 
government of Mexico to combat individuals and criminal organizations 
posing a threat to communities on both sides of the border. Through 
ACTT, we work with our Federal, State, local, and Tribal law 
enforcement partners to increase collaboration; enhance intelligence 
and information sharing; and develop coordinated operational plans that 
strategically leverage the unique missions, capabilities, and 
jurisdictions of each participating agency. Since its inception, the 
work of ACTT has led to the seizure of more than 1.2 million kilograms 
(2.7 million pounds) of marijuana, more than 3,800 kilograms (8,400 
pounds) of cocaine, and nearly 1,400 kilograms (3,000 pounds) of 
methamphetamine; more than $31 million in undeclared U.S. currency and 
525 weapons; and approximately 427,000 apprehensions between POEs.
    CBP is working closely with DHS S&T to evaluate technologies 
against a wide range of land and maritime border threats. Efforts 
include test beds on the Northern and Southern Borders to evaluate 
border tripwires, acoustic sensors to detect ultralights, and air-based 
wide-area surveillance sensors. A port security test bed has been 
established to develop improved maritime situational awareness and 
information-sharing capabilities for the USCG and CBP. As part of the 
Beyond the Border initiative with Canada, CBP and S&T are establishing 
a Canada and U.S. Sensor Sharing Pilot. The cross-border pilot will 
consist of sharing sensor information between CBP agents and Royal 
Canadian Mounted Police on the Northern Border in the area of Swanton, 
Vermont.
    Beyond these measures, we have taken additional steps to bring 
greater unity to our enforcement efforts, expand coordination with 
other agencies, and improve response times. Last February, we announced 
the Arizona Joint Field Command--an organizational realignment that 
brings together Border Patrol, Air and Marine, and Field Operations 
under a unified command structure to integrate CBP's border security, 
commercial enforcement, and trade facilitation missions to more 
effectively meet the unique challenges faced in the Arizona area of 
operations.
    Focusing on leading threat indicators, CBP developed and 
implemented the South Texas Campaign (STC) to identify and address 
current and emerging threats along the South Texas border. Through 
intelligence-sharing, integration of law enforcement resources, and 
enhanced coordination and cooperation with the government of Mexico, 
the STC conducts targeted operations to disrupt and degrade the ability 
of transnational criminal organizations to operate throughout the South 
Texas Corridor, while simultaneously facilitating legitimate trade and 
travel.
    Additionally, CBP participates in ICE-led Border Enforcement 
Security Taskforces (BESTs), which are composed of Federal, State, 
local, and international law enforcement stakeholders. BESTs currently 
operate in 31 locations, including 11 along the Southwest Border. BESTs 
bring Federal, State, local, territorial, Tribal, and foreign law 
enforcement together to work to increase security along the border. In 
fiscal year 2011, BESTs made 2,257 criminal arrests and 1,134 
administrative arrests; and Federal prosecutors obtained 1,372 
indictments and 1,193 convictions in BEST-investigated cases.
    Through collaboration and coordination with our many Federal, 
State, local, Tribal, and international government partners, we have 
made great strides with regard to the integrity and security of our 
borders. With your continued assistance, we will continue to refine and 
further enhance the effectiveness of our detection and interdiction 
capabilities.
                               conclusion
    Chairman Miller, Ranking Member Cuellar, and Members of the 
subcommittee, thank you for this opportunity to testify about the work 
of CBP. We are committed to providing our front-line agents and 
officers with the tools they need to effectively achieve their mission 
of securing America's borders and facilitating the movement of 
legitimate travel and trade. I look forward to answering any questions 
you may have at this time.

    Mrs. Miller. Thank you very much.
    The Chairwoman now recognizes Mr. Dinkins.

 STATEMENT OF JAMES A. DINKINS, EXECUTIVE ASSOCIATE DIRECTOR, 
HOMELAND SECURITY INVESTIGATIONS, U.S. IMMIGRATION AND CUSTOMS 
          ENFORCEMENT, DEPARTMENT OF HOMELAND SECURITY

    Mr. Dinkins. Good morning.
    Chairman Miller, Ranking Member Cuellar, and distinguished 
Members of the subcommittee, I want to thank you for the 
opportunity to appear before you today. It is my pleasure to be 
a member of this panel and discuss Homeland Security 
Investigation's efforts to disrupt and dismantle transnational 
criminal organizations and the threat they pose to our border 
security.
    There is no question that criminal organizations and the 
techniques they have used to smuggle items into the United 
States have evolved over the last few years. Often these 
changes are a direct response to our security efforts at the 
border. I can assure you the thousands of men and women who are 
members and represented here behind our organizations are 
making a difference.
    We are putting pressure on these organizations like never 
before. For example, as a result of our efforts on the 
Southwest Border TCOs are increasingly resorting to 
constructing sophisticated and expensive subterranean tunnels 
in an attempt to tunnel their way underneath our border 
efforts. Since 1990, when the first tunnel was discovered, we 
have seen an increase in the number of subterranean tunnels, 
the sophistication of those tunnels, as well as an increase in 
the use of sophisticated tunnels east of California, in places 
like Arizona.
    We have also seen an increase in the use of the small 
vessels, as Ms. Bucella stated, called pangas. We have two 
pictures here of what a panga looks like. These are merely 26-
foot pangas, which were originally a San Diego-area smuggling 
phenomenon, but now, in recent months, we are seeing pangas as 
long as 50 feet and venturing hundreds of miles north of the 
Mexican border.
    They are also increasing the number of illegal aliens they 
are bringing in on pangas as well as the quantity of narcotics 
that are being smuggled on these pangas. For example, just last 
week a California National Guardsman reported suspicious vessel 
off the Malibu coast in California. CBP was alerted and 
responded along with HSI and the Ventura County sheriff's 
office, and our collective efforts paid off.
    The panga was interdicted about a few hundred miles north 
of Mexico with three smugglers aboard and carrying a payload of 
over 4,000 pounds of marijuana. In addition, our efforts 
resulted in the arrests and Federal prosecution of the offload 
crew, consisting of 17 members who were waiting on shore to 
transport and distribute the drugs.
    In addition to having observed a change in the smuggling 
concealment techniques, HSI has also seen a change in the 
diversification of smuggling organizations. In the world of 
international smuggling where the stakes are high we have seen 
TCOs that once engaged in smuggling a single type of narcotics 
or a single type of contraband expanding their portfolio to 
include multiple types of drugs or, in some cases, aliens, 
counterfeit goods, or other contraband, where the profits 
remain high but the perceived threat of capture and significant 
jail time is low.
    For example, along the Northern Border, from our BEST in 
Blaine, Washington to our BESTs in Detroit and Buffalo, and our 
most recent BEST in Messena, New York, we have seen Canadian 
DTOs that at one time fueled their criminal enterprises by 
smuggling marijuana into the United States and bulk cash 
smuggling the proceeds north into Canada, now these same 
organizations are involved in not only smuggling high-grade 
marijuana into the United States, but after the marijuana is 
sold in the United States they use the proceeds to purchase 
cocaine from Mexican DTOs. The cocaine is then smuggled north 
into Canada, where it can be sold at substantial profits, 
effectively doubling or tripling their criminal proceeds.
    Another example of TCOs identifying and using new methods 
to gain entry into the United States involves using stolen 
corporate and business identities to smuggle counterfeit goods 
into the United States. This scheme not only victimizes the 
rightful intellectual property holder but also victimizes the 
corporations or businesses that had their legitimate identities 
stolen and used in elaborate international intellectual 
property theft schemes.
    Just recently we took down an undercover investigation led 
by our HSI special agent in charge in Newark, New Jersey with 
assistance from CBP, the FBI, and many of our other law 
enforcement partners. The IP theft investigation dismantled a 
TCO through the arrest of 28 suspects and the seizure of over 
$300 million in counterfeit goods had they made the way into 
the commerce.
    Through the HSI undercover investigation we learned first-
hand about how the organization's smuggling scheme involved the 
theft of legitimate corporate and business identities to be 
used on importation records for international shipments 
containing huge loads of counterfeit goods.
    These are just a few of examples on what trends we are 
seeing and facing each and every day. In collaboration with DOD 
the One DHS approach--working with our State and local law 
enforcement partners--is making a difference.
    I want to thank you again for the opportunity to be here 
today and I look forward to answering any questions you may 
have.
    [The statement of Mr. Dinkins follows:]
                 Prepared Statement of James A. Dinkins
                             June 19, 2012
                              introduction
    Chairman Miller, Ranking Member Cuellar, and distinguished Members 
of the subcommittee: On behalf of Secretary Napolitano and Director 
Morton, thank you for the opportunity to appear before you today to 
discuss the efforts of U.S. Immigration and Customs Enforcement (ICE) 
to address border security threats to the United States, our response 
to innovative tactics and techniques being used by transnational 
criminal organizations (TCOs), and how Homeland Security Investigations 
(HSI) is working to investigate, disrupt, and dismantle the TCOs.
    ICE has the most expansive investigative authority and largest 
force of investigators in the Department of Homeland Security (DHS). 
With more than 20,000 employees and a budget of nearly $6 billion, ICE 
has nearly 7,000 special agents assigned to more than 200 cities 
throughout the United States and 71 offices in 47 countries worldwide. 
HSI is well-positioned to disrupt and dismantle transnational criminal 
networks by targeting the illicit pathways and organizations that 
engage in human smuggling and produce, transport, and distribute 
illicit contraband.
    HSI targets TCOs at every critical phase in the cycle: 
Internationally in cooperation with foreign counterparts, where 
transnational criminal and terrorist organizations operate; at our 
Nation's physical border and ports of entry (POEs) in coordination with 
U.S. Customs and Border Protection (CBP), where the transportation 
cells attempt to exploit America's legitimate trade, travel, and 
transportation systems; and in coordination with our Federal, State, 
local, and Tribal law enforcement partners throughout the United 
States, where criminal organizations earn substantial profits off the 
smuggling of aliens and narcotics.
    No one entity can tackle global criminal enterprises alone. Rather, 
it requires a multi-agency, multi-national, and layered approach. To 
that end, HSI forges strong and cooperative relationships and works 
closely with our Federal, State, local, Tribal, and international 
partners toward our mission to uphold public safety and protect 
National security.
Illicit Pathways Attack Strategy (IPAS)
    Last July, an important step in fighting transnational crime was 
taken when the administration issued its Strategy to Combat 
Transnational Organized Crime (TOC Strategy). This strategy complements 
the current National Security Strategy, and other National strategies 
such as the National Drug Control Strategy, by focusing on the growing 
threat of international criminal networks. The strategy's single 
unifying principle is to build, balance, and integrate the tools of 
American power to combat transnational organized crime, and related 
threats to National security--and to urge our international partners to 
do the same.
    HSI designed the IPAS to build, balance, and integrate its 
authorities and resources, both domestic and foreign, in a focused and 
comprehensive manner to target, disrupt, and dismantle transnational 
organized crime. As recognized in the TOC Strategy, resources are not 
limitless, and targets must be prioritized in a systematic manner. The 
IPAS will provide a mechanism for ICE to prioritize threats and 
vulnerabilities within its mission and to coordinate its own efforts 
internally and within the interagency.
    The IPAS goes beyond the Nation's physical borders. We are working 
with our international and domestic law enforcement partners to attack 
transnational crime at all points along illicit pathways and break down 
transnational networks that operate within the United States.
    IPAS is a coordinated strategy to attack criminal networks at 
multiple locations along the illicit travel continuum. The concept 
involves four basic principles that will be conducted with the 
appropriate agencies having authority, such as coordination with the 
DEA on drug-related matters:
  <bullet> Attacking criminal networks within and beyond our borders;
  <bullet> Prioritizing networks and pathways that pose the greatest 
        threats;
  <bullet> Participating in and facilitating robust interagency 
        engagement; and
  <bullet> Pursuing a coordinated, regional approach that leverages 
        international partners.
    We focused our first IPAS on high-risk human smuggling in the 
Western Hemisphere to identify and target human smuggling organizations 
and their pathways across the globe. HSI is the lead Federal agency 
responsible for investigation of human smuggling, and this core mission 
function directly impacts National security, public safety, and human 
dignity. Human smuggling is also a crime that converges with other 
threats. For example, many human smuggling networks rely upon corrupt 
public officials to facilitate their efforts. Mexican drug cartels earn 
large quantities of money by charging human smugglers for permission to 
use their drug routes to enter the United States. These networks also 
are involved in bulk cash smuggling, trade-based money laundering, 
illicit finance schemes, and the use of hawalas and other money or 
value transfer services to move, transfer, and launder their proceeds.
    While our initial focus of the IPAS has been on human smuggling, in 
the coming months we plan to expand this strategy to include illicit 
finance and, eventually, every HSI investigative program area. These 
initiatives will be established by following all mandated protocols 
based on other U.S. Government authorities and Memoranda of 
Understanding with other Federal agencies.
    The IPAS combines traditional law enforcement investigations and 
prosecutions with efforts to overtly disrupt and deter the underlying 
criminal activity. Experience has shown that if we simply try to 
disrupt criminal activity by focusing law enforcement action in one 
geographic area, we only succeed in ``squeezing the balloon,'' and 
criminal organizations will quickly adapt and shift to an area where 
detection or interdiction by law enforcement is less likely. HSI's goal 
is to not only stop individual criminals, but also to stop or reduce 
the criminal activity and dismantle the entire criminal enterprise.
Illegal Tunneling on the Southwest Border
    The use of clandestine cross-border tunnels represents a growing 
threat to border security, and has been on the rise since the first 
documented tunnel was discovered in 1990. Since then, 156 tunnel 
attempts have been discovered, all but one of which were located along 
the Southwest Border. Over the past several years, HSI has seen a 
marked increase in not only the number, but also the sophistication of 
tunnels discovered.
    In 2003, HSI created the multi-agency San Diego Tunnel Task Force 
(TTF) to identify, disrupt, and dismantle TCOs that seek to exploit the 
border between the United States and Mexico by constructing 
subterranean tunnels and passageways for the purpose of smuggling. In 
2006, HSI incorporated the San Diego TTF into the newly-established 
Border Enforcement Security Task Force (BEST) to promote border-related 
coordination between Federal, State, local, Tribal, and international 
law enforcement agencies.
    The TTF brings together investigators from several agencies 
including ICE, CBP, the Federal Bureau of Investigation (FBI), the Drug 
Enforcement Administration (DEA), the Department of Defense, and 
various State and local agencies to combat the tunnel threat. One of 
the primary goals of the TTF is to stop tunnels before they become 
operational. Nearly half of all tunnels discovered to date were not yet 
operating at the time of discovery. This trend has increased in recent 
years, and demonstrates the success of our collective efforts on the 
TTF and our increased coordination with the Government of Mexico. In 
March 2012, a BEST TTF was expanded to Nogales, Arizona in an effort to 
combat TCO exploitation of the Arizona border via subterranean 
passageways.
    The considerable sophistication and extensive time and labor 
required to construct a tunnel suggests that smugglers consider it a 
useful investment despite the risk of interdiction. For example, on 
November 29, 2011, special agents assigned to the San Diego TTF 
discovered a cross-border tunnel that stretched nearly a half-mile. The 
tunnel extended 1,844 feet and included shoring, electricity, 
ventilation, and a rail system to assist in ferrying contraband. During 
the course of the investigation, HSI special agents, in conjunction 
with DEA, CBP, and our State and local partners, seized over 32 tons of 
marijuana, one handgun, and arrested six suspects associated with the 
tunnel operations.
    To complement our investigations, HSI, DEA, CBP, and the U.S. 
Border Patrol (TTF Members) created the San Diego Tunnel Detection 
Outreach program, which is a community outreach and intelligence-driven 
enforcement initiative. The goal of this program is to educate the 
owners of property near the border on the indicators of tunneling 
activity and to increase communication between citizens and the TTF. In 
turn, this initiative aims to leverage increased awareness and 
communication to generate new investigatory leads, cultivate source 
informants, and initiate increased criminal investigations and 
prosecutions. The San Diego Tunnel Detection Outreach program is 
primarily carried out through door-to-door canvassing of properties 
near the border in areas known for illegal tunnel activity and has 
proven to be a valuable law enforcement tool.
Overview of Other Smuggling Methods
    As Federal and other agencies have increased their interdiction 
efforts along the U.S.-Mexico border, drug and human smuggling 
organizations are increasingly turning to maritime smuggling routes to 
transport their illicit cargo into the United States.
    Mexican smuggling organizations have long used a variety of methods 
to enter the United States via maritime routes, including small wooden 
fishing vessels, as well as panga or ``go fast'' boats. Difficult to 
detect, these vessels often travel at night in order to avoid 
interdiction. Due to increased patrols by CBP and the U.S. Coast Guard 
(USCG), as well as a coordinated law enforcement response to this 
threat, smuggling organizations are now moving further out to sea and 
increasingly travel further up the coast before attempting to unload 
their illicit cargo.
    Criminals also seek to exploit vulnerabilities inherent to 
America's seaports by concealing contraband in cargo containers or in 
commercial fishing and shrimping vessels that can also go unnoticed due 
to the sheer volume of ships off-loaded daily from around the world and 
normal boating traffic.
    Another method of maritime smuggling is the use of self-propelled 
semi-submersibles (SPSS). In October 2011, based on intelligence 
information provided by DEA, an SPSS was discovered in the Caribbean 
Sea and over 14,000 pounds, or over 7 tons, of cocaine were seized from 
the vessel. As part of a Panama Express Operation (PANEX), the SPSS was 
originally intercepted by the USCG on September 30, 2011, based on 
information provided by DEA, in international waters approximately 110 
miles off the coast of Honduras, and sank during the encounter. The 
USCG detained the four crew members, who were later transferred to 
Tampa, Florida for Federal prosecution and each sentenced to 14 years' 
incarceration following the joint agency investigation. Earlier in 
2011, another SPSS also sank in the Caribbean and approximately 13,000 
pounds of cocaine were seized from that vessel.
    Beyond maritime smuggling, HSI has also seen an increase in the use 
of ultra-light aircraft designed to smuggle marijuana payloads of up to 
300 pounds into the United States. We have found that smugglers turn to 
using ultra-light aircraft when they are less capable of smuggling 
their illicit cargo by other methods. Other examples of the methods 
smuggling organizations use to avoid detection include:
  <bullet> Disguising load vehicles as U.S. Border Patrol or other law 
        enforcement vehicles, as well as vehicles for public utility or 
        commercial cargo services;
  <bullet> Lining narcotics with chemicals or elements such as lead to 
        thwart DHS detection methods;
  <bullet> Creating sophisticated compartments in vehicles to smuggle 
        narcotics, weapons, and bulk currency; or
  <bullet> Utilizing the ``shotgun approach,'' where a smaller load is 
        sacrificed by being made readily detectable to DHS, thereby 
        distracting officials from locating larger and/or more 
        significant drug types (i.e., heroin, cocaine, or 
        methamphetamine).
    Operation Pipeline Express, a joint operation with DEA and our 
other partners, provides an instructive example of an investigation 
into a violent Drug Trafficking Organization (DTO) that employed some 
of the techniques listed above. It was estimated that this DTO, which 
controlled an area spanning 63 miles along the I-8 corridor in Arizona, 
smuggled between 18,000 and 25,000 pounds of marijuana per week and 
generated between $9 million and $12.5 million weekly in illegal 
proceeds.
    This investigation identified a trend wherein the DTO would hire 
backpackers to smuggle narcotics through the international border to a 
drop point in the desert. Once the hiker arrived at the drop point, he 
or she would be met by a pickup truck in which the narcotics would be 
driven approximately 90 miles away to a drop house where the narcotics 
would be broken down and transported to street-level drug dealers.
    The comprehensive and aggressive investigation culminated with HSI 
special agents, in conjunction with DEA and our other law enforcement 
partners, seizing nearly 64,000 pounds of marijuana, 271 pounds of 
heroin, 200 pounds of cocaine, 9 pounds of methamphetamine, over 
$750,000 in cash, 108 weapons, 67 vehicles, and 4 ballistic vests; and 
executing 74 search warrants.
    Internal conspiracies and corruption are another significant 
vulnerability seen by HSI in its investigations of smuggling 
organizations at commercial airports and other U.S. POEs. In many of 
its investigations, HSI sees how these internal conspiracies utilize 
various employees from multiple companies and positions, including 
managers and supervisors. Employees utilize innumerable diversionary 
tactics to smuggle contraband around CBP examination.
    Finally, Mexican smuggling organizations routinely utilize counter-
surveillance methods in an attempt to adjust their methods of operation 
based on U.S. law enforcement efforts. ``Spotters,'' as they are known, 
operate almost exclusively in Mexico, rarely entering the United States 
where they can be detained for questioning or arrest. In addition, 
modern cellular telephone and radio communication technology make 
detection even more difficult, as organizations can use them to adjust 
their modes of operation in order to be more successful.
Combating Illegal Trade and Intellectual Property (IP) Theft
    Over the last 2 decades, transnational organized crime has grown 
and posed a significant threat to National and international security. 
TCO networks are proliferating, striking new and powerful alliances, 
and engaging in a range of illicit activities as never before. Recent 
investigations have shown that IP crime often fuels other serious 
crimes and poses a serious National security threat to our 
international borders.
    International criminal organizations will steal America's 
intellectual property, transship products, claim false origin, and 
mislabel potentially dangerous products--even sell dangerously unsafe 
products to the U.S. military--to profit economically.
    ICE has adapted to this threat by partnering with 20 other 
agencies, both in the United States and with key international 
partners, to form the National Intellectual Property Rights 
Coordination Center (IPR Center), which is located in Arlington, 
Virginia, to efficiently and effectively leverage resources, skills, 
and authorities to provide a comprehensive response to IP theft. The 
mission of the IPR Center is to address the theft of innovation that 
threatens U.S. economic stability and National security, undermines the 
competitiveness of U.S. industry in world markets, and places the 
public's health and safety at risk.
    In March 2012, ICE and the FBI executed a joint enforcement 
operation that resulted in the arrests of 28 suspects, including two in 
Germany. These arrests were the result of an HSI investigation that 
evolved into a large-scale counterfeit smuggling scheme and eventually 
merged with an FBI narcotics smuggling investigation. This 
investigation revealed the organization to be involved in a web of 
criminal activity, which included not only the smuggling of counterfeit 
merchandise and narcotics trafficking, but also the use of fictitious 
personal and stolen corporate identities to further those activities. 
The total estimated manufacturers' suggested retail price of seized 
goods that this organization attempted to smuggle was over $300 
million.
    The IPR Center is also leading an effort to educate the public and 
other audiences about IP theft and its connection with transnational 
organized crime. The IPR Center hosted a symposium titled ``IP Theft 
and International Organized Crime and Terrorism: The Emerging Threat,'' 
where panels of academics, industry leaders, and domestic and 
international Government officials discussed links between 
transnational organized crime, terrorism, and IP theft.
Illicit Finance and Bulk Cash Smuggling
    The combination of successful financial investigations, reporting 
requirements under the Bank Secrecy Act of 1970, and anti-money 
laundering compliance efforts by financial institutions has no doubt 
strengthened formal financial systems and forced criminal organizations 
to seek other means of transporting illicit funds across our borders.
    One of the most effective methods for dismantling TCOs is to attack 
the criminal proceeds that are the lifeblood of their operations. HSI 
takes a holistic approach toward investigating money laundering, 
illicit finance, and financial crimes by examining the ways that 
individuals and criminal organizations earn, move, store, and launder 
their illicit proceeds. Criminal organizations are now being forced to 
seek other means to diversify the movement of illicit funds, such as 
the use of money service businesses (MSBs), prepaid devices, and bulk 
cash smuggling.
    One of the most significant developments in recent years was a 
change in Mexican banking regulations that severely limits the amount 
of U.S. dollars that can be deposited within Mexican financial 
institutions. This change has ultimately proven to be a successful tool 
in combating drug trafficking and the cartels by causing cartels to 
change how drug proceeds are laundered. While the cartels are adapting, 
we believe that one result of this change may be a desire to place 
these funds into U.S. financial institutions and then wire the proceeds 
back to Mexico. We continue to work closely with the Government of 
Mexico to identify emerging money-laundering trends.
    Domestically, we have seen changes in how drug proceeds are moved 
within the United States. In the last several years, we have seen 
domestic drug organizations attempt to place illicit funds into U.S. 
financial institutions to avoid currency transaction reporting 
requirements. In one version of this scheme, referred to as the 
``funnel account'' model, drug organization members in destination 
cities make cash deposits into bank accounts opened in the United 
States. In turn, the account holder (a nominee for the drug 
organization) will withdraw funds at various banking institutions in 
the United States and turn them over (often minus a small fee) to the 
drug organization. The scheme has been difficult for bank anti-money 
laundering personnel to identify because the funds deposited are 
typically under the statutory reporting limit of $10,000.
    This tactic was initially identified in human smuggling 
organizations operating in Arizona, but we have since seen its use 
expanded to domestic drug organizations. We believe that the emergence 
of this tactic came as a direct result of the successful enforcement 
focus on MSBs that were being used by human smugglers to receive 
payments from ``sponsors'' in the United States. When the ability to 
easily use MSBs ended, a transition to the funnel account model was 
observed. Through on-going outreach and education efforts with 
financial institutions and the Treasury Financial Crimes Enforcement 
Network, banking personnel have begun to identify this activity and are 
now reporting it to law enforcement regularly.
National Bulk Cash Smuggling Center
    On August 11, 2009, HSI officially launched the National Bulk Cash 
Smuggling Center (BCSC) as a 24/7 investigative support and operations 
facility located in close proximity to the Law Enforcement Support 
Center in Williston, Vermont. In 2011, the BCSC entered into a 
partnership with the El Paso Intelligence Center, which has resulted in 
enhanced data-sharing activity between these two entities. Since its 
launch, the BCSC has undertaken a full assessment of the bulk cash 
smuggling threat and has developed a strategic plan to address the 
problem.
    By analyzing the movement of bulk cash as a systematic process, HSI 
develops enforcement operations to defeat the various smuggling 
methodologies currently employed by trafficking organizations. This 
approach allows us to more efficiently and effectively utilize our 
interdiction and investigative resources.
    Since its inception, the BCSC has initiated over 500 criminal 
investigations involving 132 seizures totaling $65.8 million. To date, 
these investigations culminated in 133 arrests, 36 indictments, and 34 
convictions in both Federal and State courts. The BCSC has also 
provided training and outreach to over 21,000 State, Federal, and 
international partners.
    In April 2012, the BCSC coordinated with HSI field offices in St. 
Louis, Missouri and Greeley, Colorado in support of a controlled 
delivery of illicit bulk cash proceeds amounting to nearly $265,000. 
The initial seizure was the result of a traffic stop, but in an attempt 
to ``follow the money trail,'' agents successfully executed a 
controlled delivery of the currency.
Operation Firewall
    HSI's Operation Firewall disrupts the movement and smuggling of 
bulk cash en route to the border, at the border, and internationally 
via commercial and private passenger vehicles, commercial airline 
shipments, airline passengers, and pedestrians. Since 2005, Operation 
Firewall has been enhanced to include surge operations targeting the 
movement of bulk cash destined for the Southwest Border to be smuggled 
into Mexico. Since its inception in 2005 through March 2012, Operation 
Firewall has resulted in more than 6,600 seizures totaling more than 
$611 million, and the arrests of 1,400 individuals. These efforts 
include 469 international seizures totaling more than $267 million and 
300 international arrests.
Northern Border Security
    Although law enforcement efforts along the Southwest Border have 
traditionally garnered the most media attention, ICE, in coordination 
with its Federal, State, local, Tribal, and international partners, is 
well-positioned to address the threat that TCOs pose to both the United 
States and Canada along the Northern Border. In fact, HSI maintains the 
largest investigative footprint of any U.S. law enforcement agency in 
Canada, with four Attache and Assistant Attache offices (Ottawa, 
Vancouver, Toronto, and Montreal) that enhance National security by 
conducting investigations involving TCOs and serving as the agency's 
liaison to our interagency partners and counterparts in local 
government and law enforcement.
    The British Columbia-based ``U.N. Gang'' is an example of a TCO 
whose operations stretch across the entire Northern Border and beyond. 
This violent criminal organization operates from the Lower Mainland of 
British Columbia, Canada, and is actively involved in large-scale 
narcotics trafficking and money-laundering activities. Its operations 
stretch into the United States, Mexico, Venezuela, Colombia, India, 
Vietnam, Australia, and Great Britain. This gang exports large 
quantities of Canadian-grown marijuana into the United States and uses 
the revenue generated to purchase cocaine from abroad, which is then 
smuggled into British Columbia and sold throughout Canada.
    During a recent joint investigation with DEA and its other Federal, 
State, and local law enforcement partners, we uncovered evidence that 
the U.N. Gang imports hundreds of pounds of cocaine into British 
Columbia every month. After Canadian marijuana is smuggled into the 
United States, U.N. Gang members sell it for U.S. dollars. These 
proceeds are then smuggled by couriers in the form of bulk currency 
from cities across the United States to California where they are used 
to purchase cocaine from abroad. This cocaine, in turn, is smuggled 
into Canada and subsequently sold for Canadian dollars. This method of 
drug trafficking and money laundering exemplifies the sophistication 
and reach of the DTOs.
Border Enforcement Security Task Force (BEST)
    HSI continues to expand the BEST program, which currently operates 
in 31 locations throughout the United States and Mexico. BEST leverages 
over 750 Federal, State, local, and foreign law enforcement agents and 
officers representing over 100 law enforcement agencies. BEST also 
provides a co-located platform to conduct intelligence-driven 
investigations aimed at identifying, disrupting, and dismantling 
transnational criminal organizations that operate in the air, land, and 
sea environments. In fical year 2011, BESTs made 2,257 criminal 
arrests, 1,134 administrative arrests, and Federal prosecutors obtained 
1,372 indictments and 1,193 convictions in BEST-investigated cases.
Working with Mexican Authorities
    Working with the government of Mexico in its battle against drug 
violence requires strong coordination to ensure both nations are 
operating together to combat this transnational threat. HSI continues 
to engage Mexican authorities on a number of levels in our joint 
efforts to combat border violence. For example, HSI's Border Liaison 
Officer (BLO) program allows HSI to more effectively identify and 
combat cross-border criminal organizations by providing a streamlined 
information and intelligence-sharing mechanism. The BLO program has an 
open and cooperative working relationship between United States and 
Mexican law enforcement entities. HSI has recently quadrupled the 
number of officers in the BLO program by redeploying agents to the 
Southwest Border.
    The HSI Attache office in Mexico City has coordinated its own 
Special Investigative Units of Mexican law enforcement officers. HSI 
has also strengthened the coordination with the government of Mexico by 
increasing HSI personnel in Mexico by 50 percent and deploying 
additional special agents to Mexico. Through our Attache in Mexico City 
and associated sub-offices, HSI assists DEA in efforts to combat 
transnational drug trafficking, weapons smuggling, human smuggling, and 
money laundering syndicates in Mexico. HSI Mexico City personnel, in 
conjunction with DEA, work on a daily basis with Mexican authorities to 
combat these transnational threats, and these efforts have been 
enhanced by additional officers.
                               conclusion
    Thank you again for the opportunity to appear before you today to 
discuss our efforts to combat border security threats to the United 
States and our response to the innovative tactics and techniques being 
used by criminal cross-border smuggling organizations.
    I would be pleased to answer any questions you may have.

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    Mrs. Miller. Thank you very much.
    The Chairman now recognizes Rear Admiral Lee for his 
testimony.

  STATEMENT OF WILLIAM D. LEE, DEPUTY FOR OPERATIONS POLICY & 
CAPABILITIES, U.S. COAST GUARD, DEPARTMENT OF HOMELAND SECURITY

    Admiral Lee. Good morning, Chairman Miller, Ranking Member 
Cuellar, and other distinguished Members of the subcommittee. I 
am honored to be here today to discuss the Coast Guard role in 
combating our emerging border security threats as the lead 
agency in the country's maritime domain.
    As you probably know, the Coast Guard uses a layered 
defense strategy to counter the threats we face in the maritime 
approaches to our Nation's borders. This strategy starts 
overseas with our partner nations, where our International Port 
Security program assessing foreign ports on their own security 
and antiterrorism measures and continues over here into our own 
domestic ports, where we monitor critical infrastructure, 
escort vessels, and inspect various facilities in conjunction 
with our Federal, State, local, Tribal, and industry partners.
    Offshore our major cutter fleet is always on patrol and 
poised to respond to threats on the high seas. This critical 
surface fleet is supported by our aviation assets, which 
provide surveillance capability to help optimize our overall 
effectiveness.
    This offshore mix, both surface and air, is critical to 
stopping the threats long before they reach our shores.
    Last summer my colleague, Admiral Paul Zukunft, testified 
before you on the key role that interagency and international 
partnerships play in protecting our maritime borders. These 
partnerships are critical to enhancing our capability and 
effectiveness along our coast and our waterways.
    An outstanding example of such a partnership is the Joint 
Harbor Operations Center, or JHOC, located at Coast Guard 
Sector San Diego, which is staffed by personnel from more than 
20 agencies, including the Coast Guard, CBP, the Department of 
Defense, and the local marine police. In fiscal year 2011 and 
2012 so far the JHOC coordinated the interdiction of over 1,100 
illegal migrants and more than 80,000 pounds of illegal drugs 
destined for the streets of the United States.
    To the north we enjoy very strong partnership with Canada. 
Through Integrated Border Enforcement Team operations Coast 
Guard and Royal Canadian Mountie--Canadian Mounted Police 
officers jointly conduct interdiction operations. In March 2011 
this partnership resulted in the interdiction of over $2.5 
million in U.S. currency, the largest maritime currency seizure 
in Puget Sound history.
    From the partnership the integrated cross-border maritime 
law enforcement operations relationship, commonly referred to 
as Shiprider, was developed. Shiprider, if ratified by the 
Canadian Parliament, will allow U.S. and Canadian officers to 
be trained and cross-designated with law enforcement authority 
on both sides of our border. This is an innovative force 
multiplier that we hope will grow deep roots.
    Another example of partnering is the North American 
Maritime Security Initiative, or NAMSI, which facilitates 
coordination of training, tactics, and operation between the 
United States, Canada, and Mexico. Since the inception of NAMSI 
in December 2008 there have been 24 joint cases resulting in 
the seizure of more than 62,000 pounds of illegal narcotics.
    Just last month the Coast Guard C-130 aircraft, on a 
training mission near San Clemente Island, California, detected 
a fast-moving small boat with bales visible on its deck. Upon 
seeing the aircraft the small boat began to jettison the bales 
and then head towards Mexican territorial seas. A Coast Guard 
cutter was vectored in and recovered 42 bales of marijuana. The 
Mexican navy seized the boat after it was beached on land.
    Our approach to border security is risk-based, allowing for 
the most effective posturing of our limited resources. To 
maximize this effort we participate as a member of the National 
intelligence community. We screen ships, crews, and passengers 
bound for the United States by requesting vessels to submit an 
advance notice of arrival 96 hours prior to arriving in any 
U.S. port.
    Using our two maritime intelligence fusion centers and our 
Intelligence Coordinator Center's COASTWATCH program we work 
with CBP's National Targeting Center to analyze arriving 
vessels and ascertain potential risks they may pose. Last year 
we collectively screened more than 120,000 vessels and 28 
million people.
    Our layered approach to maritime border security combined 
with our interagency and international partnership serves to 
protect our border out and beyond our physical boundaries. This 
strategy, supported by information and intelligence sharing 
allows us to collectively detect, deter, and interdict threats 
well before they pose a threat to our Nation.
    Thank you for the opportunity to appear before you today 
and for your continued support of the United States Coast 
Guard. I will be pleased to answer any questions you may have.
    [The statement of Admiral Lee follows:]
                  Prepared Statement of William D. Lee
                             June 19, 2012
                              introduction
    Good morning Chairman Miller, Ranking Member Cuellar, and 
distinguished Members of the subcommittee. I am honored to be here 
today to discuss the Coast Guard's role in combating emerging border 
security threats, and in particular, the Coast Guard's role within the 
maritime domain.
    Threats to the Nation's border are dynamic and widespread, ranging 
from known illegal drug and migrant smuggling in the Caribbean Basin 
and Eastern Pacific to the potential for terrorist and criminal 
organizations to impact security, safety, and resiliency of our Nation, 
and hamper the safe and secure movement of commerce through the global 
supply chain.
              a layered approach to counter maritime risk
    With more than 350 ports and 95,000 miles of coastline, the U.S. 
maritime domain is unique in its scope and diversity. Under 14 U.S.C. 
sections 2 and 89, the U.S. Coast Guard has the statutory authority and 
responsibility to enforce all applicable Federal laws on, under, and 
over the high seas and waters subject to the jurisdiction of the United 
States.
    The Coast Guard leverages its unique authorities, capabilities, and 
domestic and international partnerships to maintain maritime border 
security through a layered and integrated approach that begins beyond 
the country's physical borders. This layered approach to security 
begins in foreign ports where, through the International Port Security 
Program, the Coast Guard conducts foreign port assessments to determine 
the port security effectiveness and antiterrorism measures of foreign 
partners.
    Offshore, a capable major cutter and patrol boat fleet respond to 
threats, and launch boats and aircraft to maintain a vigilant presence 
over the seas. Closer to shore, Coast Guard helicopters, small cutters, 
and boats monitor, track, interdict, and board vessels. In our ports, 
the Coast Guard, along with our Federal, State, local, and Tribal 
partners, working in concert with other port stakeholders, monitors 
critical infrastructure, conducts vessel escorts and patrols, and 
inspects vessels and facilities. The Coast Guard's mix of cutters, 
aircraft, and boats--all operated by highly proficient personnel--
allows the Coast Guard to exercise layered and effective security 
through the entire maritime domain.
    This layered approach, which is risk-based and facilitated by our 
participation within the National intelligence community, allows the 
Coast Guard to effectively position its limited resources against the 
Nation's most emergent threats.
                         international efforts
    To combat threats furthest from our borders, the Coast Guard 
fosters strategic relationships with partner nations. The International 
Ship and Port Facility Security (ISPS) Code provides an international 
regime to ensure ship and port facilities take appropriate preventative 
measures comparable to our domestic regime under the Maritime 
Transportation Security Act. Under the International Port Security 
Program, Coast Guard personnel visit over 150 countries and 900 ports 
on a biennial cycle to assess the effectiveness of foreign port 
antiterrorism measures and verify compliance with the ISPS Code. 
Vessels arriving from non-ISPS-compliant countries are required to take 
additional security precautions, may be boarded by the Coast Guard 
before being granted permission to enter, and in specific cases, may be 
refused entry.
    Additionally, the Coast Guard maintains 42 maritime bilateral law 
enforcement agreements with partner nations, which facilitate 
coordination and the forward deployment of boats, cutters, aircraft, 
and personnel to deter and counter threats as close to their origin as 
possible. These agreements also enable us to assist partner nations in 
exerting their span of control and maintaining regional maritime domain 
awareness.
    To address the threats and leverage the opportunities for improving 
border security closer to the United States, the Coast Guard, U.S. 
Northern Command (NORTHCOM), the Mexican Navy (SEMAR), and the Mexican 
Secretariat for Communications and Transportation (SCT), have 
strengthened their collective relationship, in part through the 
Security and Prosperity Partnership (SPP). This commitment demonstrates 
that the United States and Mexico share many areas of mutual interest 
that are vital to the security of each country. SEMAR and SCT are 
increasing their engagement with the Coast Guard through training, 
exercises, coordinated operations, and intelligence and information 
sharing.
    The North American Maritime Security Initiative (NAMSI) provides an 
operational relationship between SEMAR, NORTHCOM, the government of 
Canada, and the Coast Guard and coordinates standard procedures for 
communications, training, procedures, and operations. Since the 
inception of NAMSI in December 2008, there have been 24 joint cases 
yielding 62,816 pounds of narcotics seizures.
    On our shared border with Canada, the Coast Guard is an integral 
part of the Integrated Border Enforcement Team operations where U.S. 
and Canadian agencies work together sharing information and expertise 
to support interdiction operations along the U.S. and Canadian border. 
From this partnership, an operational relationship known as Integrated 
Cross-Border Maritime Law Enforcement Operations, commonly referred to 
as Shiprider, was developed. The Shiprider Framework Agreement is on 
schedule to be considered for ratification by the Canadian Parliament 
during the summer of 2012. This will allow unprecedented law 
enforcement flexibility in the shared waters of the U.S. and Canadian 
maritime border.
    When the Shiprider Framework Agreement is ratified, specially-
trained U.S. and Canadian officers from Federal, State, local, and 
Tribal agencies will be granted cross-designated law enforcement 
authorities. U.S. officers will become Peace Officers in Canada, and 
Canadian officers will be Customs Officers in the United States. They 
will facilitate improved integrated operations and provide the ability 
to U.S. and Canadian law enforcement officers to carry weapons and 
conduct law enforcement operations on both sides of the border. The 
Coast Guard is the lead U.S. agency, or Central Authority, for 
Shiprider, as is the Royal Canadian Mounted Police (RCMP) for Canada. 
The Coast Guard and RCMP have developed an educational curriculum 
taught at the Coast Guard's Maritime Law Enforcement Academy in 
Charleston, South Carolina. To date, law enforcement officers from the 
Coast Guard and RCMP, in addition to officers from U.S. Customs and 
Border Protection (CBP) and Tribal law enforcement officers from the 
St. Regis Mohawk Tribe (United States) and Akwesasne Tribe (Canada) 
have been trained and cross-designated.
                         domestic partnerships
    As outlined by President Obama and Canadian Prime Minister Harper 
in the Beyond the Border declaration, border security includes the 
safety, security, and resiliency of our Nation; the protection of our 
environmental resources; and the facilitation of the safe and secure 
movement of commerce in the global supply chain. Specific to our 
Nation's Southwest Border, the Department of Homeland Security (DHS) 
implemented a Southwest Border Security Initiative to keep our 
communities safe from threats of border-related violence and crime, and 
to weaken the transnational criminal organizations that threaten the 
safety of communities in the United States and Mexico.
    The Coast Guard coordinates and conducts joint operations with 
other DHS components and interagency partners to ensure a whole-of-
Government response to border threats. A DHS Senior Guidance Team 
(SGT), co-chaired by the Coast Guard, CBP, and U.S. Immigration and 
Customs Enforcement, serves to improve efficiency and effectiveness 
within DHS. Recently, the SGT facilitated promulgation of the DHS Small 
Vessel Security Implementation Plan as well as the Maritime Operations 
Coordination Plan, which ensures operational coordination, planning, 
information sharing, intelligence integration, and response activities.
    Coast Guard Captains of the Port are designated as Federal Maritime 
Security Coordinators. In this role, they lead the Area Maritime 
Security (AMS) Committees and oversee development and regular review of 
AMS Plans. AMS Committees have developed strong working relationships 
with other Federal, State, and local law enforcement agencies in an 
environment that fosters maritime stakeholder participation.
    The Joint Harbor Operations Center (JHOC) in San Diego, California 
is another example of the evolution of joint operations at the port 
level. Located at Coast Guard Sector San Diego, the JHOC is manned with 
Coast Guard, CBP, and local Marine Police watchstanders. JHOC-
coordinated operations contributed directly to the interdiction of 
1,103 illegal immigrants and 80,500 pounds of illegal drugs in fiscal 
year 2011 and fiscal year 2012 (through May 27). On a National scale, 
the establishment of Interagency Operations Centers (IOCs) for port 
security is well underway. In ports such as Charleston, Puget Sound, 
San Diego, Boston, and Jacksonville, the Coast Guard, CBP, and other 
agencies are sharing workspace and coordinating operational efforts for 
improved efficiency and effectiveness of maritime security operations.
    Joint interdiction operations with Federal partners are coordinated 
through the Joint Interagency Task Force-South (JIATF-S). Additionally, 
Coast Guard Law Enforcement Detachments are deployed aboard U.S. Navy 
and Allied assets to support detection, monitoring, interdiction, and 
apprehension operations.
    The Coast Guard has also established formal partnerships to 
collaborate with CBP on their maritime Predator Unmanned Aerial System 
(UAS) program (land-based), and the Navy on their Fire Scout UAS 
program (cutter-based), to continue efforts to develop this expanding 
capability. UAS capability will improve detection and surveillance 
activities.
    When the Coast Guard is alerted to a threat to the United States 
that requires a coordinated U.S. Government response, the Maritime 
Operational Threat Response (MOTR) Plan is activated. The MOTR Plan 
uses established protocols and an integrated network of National-level 
maritime command and operations centers to facilitate real-time Federal 
interagency communication, coordination, and decision-making to ensure 
timely and decisive responses to counter maritime threats.
                  maritime intelligence and targeting
    As the lead DHS agency for maritime homeland security, the Coast 
Guard screens ships, crews, and passengers bound for the United States 
by requiring vessels to submit an Advance Notice of Arrival 96 hours 
prior to their arriving in a U.S. port. The Coast Guard, through its 
two Maritime Intelligence Fusion Centers and our Intelligence 
Coordination Center's COASTWATCH unit, works with CBP's National 
Targeting Center to analyze arriving vessels to ascertain potential 
risks they may pose to our Nation's security. In 2011, the Coast Guard 
screened more than 120,000 vessels and 28.5 million people. Screening 
results are passed to the appropriate Coast Guard Sector Command 
Center, local intelligence staffs, and CBP to be used to evaluate and 
take action on any potential risks. This integration has led to 
increased information sharing and more effective security operations.
    The Coast Guard also participates in the Container Security 
Initiative, led by CBP, to ensure that all U.S.-bound maritime shipping 
containers posing a potential risk are identified and inspected prior 
to being placed on vessels bound for the United States. This initiative 
encourages interagency cooperation through collecting and sharing 
information and trade data gathered from ports, strengthening 
cooperation, and facilitating risk-informed decision making.
                               conclusion
    The Coast Guard has forged effective international and domestic 
partnerships to optimize maritime border security while minimizing 
delays to the flow of commerce. We foster training, share intelligence 
and information, as appropriate, and coordinate operations to deter and 
interdict current and emerging threats to our border.
    Thank you for the opportunity to testify today, and for your 
continued support of the U.S. Coast Guard. I would be pleased to answer 
your questions.

    Mrs. Miller. Thank you very much, Admiral.
    The Chairwoman now recognizes Rear Admiral Michel for his 
testimony.

  STATEMENT OF CHARLES D. MICHEL, DIRECTOR, JOINT INTERAGENCY 
                        TASK FORCE-SOUTH

    Admiral Michel. Morning, Chairman Miller, Ranking Member 
Cuellar, Members of the subcommittee. Thank you for the 
opportunity to appear before you this morning.
    Joint Interagency Task Force-South is a multiservice, 
multiagency, National task force and a component of the United 
States Southern Command, located in Key West, Florida. We 
conduct counter-illicit trafficking support operations, 
intelligence fusion, and multi-sensor correlation to detect, 
monitor, and hand off suspected illicit trafficking targets and 
counter the flow of illicit traffic.
    Illicit trafficking poses a serious threat to our National 
and homeland security, presenting a formidable challenge not 
only for the United States but for our international partners, 
as well. Our borders and our neighbors are being assailed by a 
dangerous adversary that is well-resourced, adaptive, and 
experienced at employing all modes and means of conveyance 
across sea, air, and land domains to reach the United States 
and global markets with their deadly products. The challenge is 
daunting.
    Transnational organized crime and the cocaine trade have a 
demonstrably corrosive and destabilizing effect on the rule of 
law and civil society in every country where they have a 
significant presence. Cocaine is unique in that is--it is only 
produced in marketable volumes and quality in three countries--
Columbia, Peru, and Bolivia. It thus has a distinctive flow 
pattern as it is moved from the three source countries to 
global markets. It is this flow and the crime that goes with it 
that threatens Central America, Mexico, and the United States, 
bringing with it brutal violence, fear, and instability.
    My statutory focus as director of Joint Interagency Task 
Force-South is to combat transnational criminal organizations 
by detecting the flow of drugs early in its supply chain and 
facilitating its interdiction as far from our borders as 
possible. Through solid intelligence, innovation, and 
unprecedented interagency and international partnerships Joint 
Interagency Task Force-South supported record cocaine 
disruptions totaling nearly 2,000 metric tons over the last 10 
years.
    Approximately 80 percent of the cocaine headed for the 
United States transits via maritime conveyance while the 
remaining 20 percent makes its first moves by air. About 90 
percent of the cocaine destined for the United States travels 
through the Mexico-Central American corridor, which includes 
the waters of the Eastern Pacific as well as the Western 
Caribbean.
    The primary means by which cocaine is transported is the 
go-fast boat, usually open-hulled boats anywhere from 20 to 50 
feet in length with several powerful outboard engines. In 2011 
there were 568 go-fast events moving 490 metric tons of cocaine 
towards the United States through the Central American 
corridor. This massive volume moving through the countries in 
Central America fuels the transnational criminal organizations 
causing violence, instability, and corruption, especially in 
northern Central America and in Mexico, along our Southwest 
Border.
    The self-propelled semi-submersibles and fully-submersible 
vessels are potentially an even more insidious threat to the 
security of the United States because they are capable of 
transporting up to a 10-ton payload and are extraordinarily 
difficult to detect at sea due to their very low profile or 
even submerge capabilities. These dangerous drug conveyances 
could be adapted for transporting other, more serious security 
threats to the United States.
    At less than a million dollars apiece in construction costs 
the self-propelled semi-submersible can move enough cocaine in 
a single trip to generate more than $100 million in illicit 
proceeds. Since 2006, when the first self-propelled semi-
submersible was detected, there have been as many as 60 such 
events moving as much as 330 metric tons per year in the 
Eastern Pacific. In the summer of 2011 for the first time Joint 
Interagency Task Force-South supported the disruption of five 
self-propelled semi-submersible vessels in the Western 
Caribbean, each carrying more than 6.5 metric tons of cocaine.
    The fully-submersible vessels can transit up to 6,800 
nautical miles unsupported and fully loaded with up to 10 
metric tons of cargo. This range capability can take a fully-
submersible vessel from the west coast of Columbia to Los 
Angeles or from the north coast of Columbia to Galveston.
    The foresight and wisdom of Congress deserves a note of 
thanks for enacting the Drug Trafficking Vessel Interdiction 
Act of 2008, which made the mere operation of stateless semi- 
and fully-submersible vessels in international waters a crime.
    Record illicit trafficking successes in the mid-2000s drove 
a change in trafficking routes. Most alarming was movement in 
the maritime operations to the Central American littorals.
    To counter this shift and to alleviate the pressure on 
Central American countries Operation MARTILLO began in earnest 
in--on 15 January 2012. It is the focusing lens of a whole-of-
government international solution to this significant threat to 
regional stability and homeland security. Operation MARTILLO 
seeks to deny trafficker use of Central American littorals and 
maximize the interdiction efforts of our interagency and 
international partners.
    Chairwoman Miller, Ranking Member Cuellar, Members of the 
subcommittee, we fight a highly-disciplined, well-funded 
adversary that employs cutting-edge technology, improvises 
their tactics, and shifts seamlessly between modes of 
communications and methods of conveyance.
    Thank you again for the opportunity to testify today and I 
am happy to answer any questions you might have.
    [The statement of Admiral Michel follows:]
                Prepared Statement of Charles D. Michel
                              19 June 2012
                              introduction
    Chairwoman Miller, Ranking Member Cuellar, and other distinguished 
Members of the subcommittee, thank you for the opportunity to appear 
before the subcommittee. Illicit trafficking poses a serious threat to 
our National security, presenting a formidable challenge not only for 
the United States but for our international partners as well. Our 
borders are being assailed by a dangerous adversary that is well-
resourced, adaptive, and experienced at exploiting all avenues of 
approach to the United States. These transnational criminal networks 
employ all modes and means of conveyance across all transportation 
domains to reach U.S. and global markets. The challenge is daunting.
    Illicit trafficking threatens our country at every land, air, and 
sea border and challenges the sovereignty of our many international 
partners. In particular, the tactics, techniques, and procedures 
employed by drug traffickers are methodologies that can be used by 
anyone wanting to move illicit people and/or cargo--including 
terrorists. The established routes, proven methods of conveyances, 
built-in logistics, communications, and command-and-control networks 
could be leveraged by a variety of groups seeking to do harm to the 
United States. While this potential exists, to date, Joint Interagency 
Task Force-South (JIATF-South) and U.S. Southern Command have not seen 
any indication of terrorist organizations or their affiliates using 
illicit trafficking networks to reach the United States to commit acts 
of terrorism. We continue to monitor this possibility closely.
    JIATF-South has broad legal authorities to conduct detection and 
monitoring operations against illicit trafficking in order to hand off 
targets to the appropriate law enforcement authorities. The highest 
priorities are Nationally-nominated targets of interest, from weapons 
of mass destruction to special interest aliens and high-value targets. 
The next tier down comprises a broad spectrum of transnational threats, 
to include the cocaine trade that by itself is worth an estimated $85 
billion globally.\1\ Staggering amounts of revenue and profit allow 
transnational criminal organizations (TCOs) to challenge nations by 
exacerbating corruption and undermining governance, rule of law, 
judicial systems, free press, democratic institution-building, and 
transparency, as indicated in the 2011 Strategy to Combat Transnational 
Organized Crime (CTOC).\2\ Cocaine is still one of the most lucrative 
forms of profit for TCOs and is produced in marketable volumes and 
quality in three countries in South America: Colombia, Peru, and 
Bolivia.\3\ Peru and Bolivia have the potential to produce 41 percent 
and 25 percent of the total cocaine volume respectively, and Colombia 
potentially produces 34 percent.\4\ According to Drug Enforcement 
Administration (DEA), of the United States drug seizures subjected to 
forensic analysis, 97 percent comes from Colombia,\5\ and it is this 
specific flow that threatens Central America, Mexico, and the United 
States.
---------------------------------------------------------------------------
    \1\ UNODC World Drug Report 2011.
    \2\ The White House. President Obama's Strategy to Combat 
Transnational Organized Crime.
    \3\ 2010 Interagency Assessment of Cocaine Movement.
    \4\ 2010 Interagency Assessment of Cocaine Movement. Potential 
production is assessed by arable hectares available for coca growth.
    \5\ DEA. Analysis of Cocaine Price and Quality.
---------------------------------------------------------------------------
    With a homicide rate of 82 per 100,000,\6\ Honduras is the most 
dangerous country in the world, including the current zones of conflict 
in the Middle East. San Pedro Sula, Honduras has a homicide rate of 159 
deaths per 100,000 citizens, surpassing Ciudad Juarez, Mexico as the 
world's most violent city.\7\ Violent TCOs and gang activity, supported 
by the flow of cocaine and other contraband towards the United States 
and the rest of the global market, are negatively impacting citizen 
security. As illicit drugs move outward to the consuming markets, the 
money from illicit drug transactions returns to the source and transit 
regions, creating instability within our partner countries by promoting 
corruption and undermining legitimate financial institutions. My 
statutory focus as director of JIATF-South is combating the illicit 
drug trade by detecting the flow of drugs early in the supply chain and 
facilitating interdiction as far from our borders as possible, before 
illicit drugs are broken down into small, harder-to-detect load sizes. 
Operation MARTILLO is the focusing lens of a whole-of-Government, 
international solution to this significant regional threat to National 
security. Coordinated by JIATF-South to support the President's CTOC 
strategy, Operation MARTILLO seeks to deny the use of the Central 
American littorals by TCOs while maximizing the drug interdiction 
efforts of our interagency partners in the principal geographic 
corridor through which the bulk of illicit drugs moves toward the 
United States.
---------------------------------------------------------------------------
    \6\ UNODC 2011 Homicide Rates by Country.
    \7\ Consejo Ciudadano para la Seguridad, Justicia y Paz Penal A.C. 
(Citizen Council for Public Security and Criminal Justice), Mexico, 
2011.
---------------------------------------------------------------------------
  drug movement in the transit zone: go-fasts, semi-submersibles, and 
                           fully submersibles
    JIATF-South challenges drug traffickers in the air and on the sea 
24 hours a day, 7 days a week, in defense of America's borders. We are 
relentless and committed while operating in a resource-constrained 
environment. Our goal is to put drug traffickers at risk of 
interdiction and arrest at each and every step of their journey. We 
work very hard in constant support of law enforcement to ensure this 
all occurs seamlessly with the most effective use of our resources. 
Through better intelligence, technological innovations, and 
unprecedented interagency and international partnerships, JIATF-South 
has supported record cocaine disruptions, totaling 1,997 metric tons 
over the last 10 years.\8\
---------------------------------------------------------------------------
    \8\ JIATF-South analysis of Interagency Consolidated Counter Drug 
Database (CCDB).
---------------------------------------------------------------------------
    From all indications, 80 percent of cocaine, bound for the United 
States, transits initially via maritime methods of conveyance, while 
the remaining 20 percent makes its first moves by air.\9\ Today, 
Honduras is the primary initial arrival point for cocaine as it leaves 
the source zone; in 2011, approximate 35 percent of the world's cocaine 
supply made its first landfall there.\10\ Once on land, larger loads 
are eventually broken down into smaller packages before entering the 
United States. The Mexico/Central American corridor, which includes the 
waters of the Eastern Pacific and Western Caribbean, is the primary 
threat vector toward the United States, accounting for more than 90 
percent of total documented cocaine movement.\11\
---------------------------------------------------------------------------
    \9\ JIATF-South case analysis.
    \10\ JIATF-South analysis of Interagency Consolidated Counter Drug 
Database (CCDB).
    \11\ JIATF-South analysis of Interagency Consolidated Counter-Drug 
Database (CCDB).
---------------------------------------------------------------------------
    Cocaine from the source zone moves by a number of conveyances, the 
primary being go-fasts, usually open-hulled boats anywhere from 20 to 
50 feet in length with one to four powerful outboard engines. Carrying 
anywhere from 300 kilograms to 3.5 metric tons of cocaine, these 
vessels typically leave Colombia and follow the Western Caribbean 
coastline of Central America to make landfall, principally in Honduras. 
In the Eastern Pacific, the same types of vessels will leave Colombia 
or Ecuador, and transit off-shore to Guatemala and Mexico or follow the 
coastline to Panama or Costa Rica.
    In 2011, the interagency's Consolidated Counter Drug Database 
(CCDB) indicated that there were 568 go-fast events moving 490 metric 
tons of cocaine from South America toward the United States. Ninety-
four percent of those movements were along the Central American isthmus 
into Honduras, Guatemala, and Mexico.\12\ This massive volume moving 
off-shore and often through the countries of Central America is 
contributing to the instability and corruption seen in northern Central 
America, Mexico, and along our Southwest Border.
---------------------------------------------------------------------------
    \12\ Interagency Consolidated Counter-Drug Database (CCDB).
---------------------------------------------------------------------------
    Though not present in the same numbers as go-fasts, the Self-
Propelled Semi-Submersibles (SPSS) and Fully Submersible Vessels (FSV) 
are potentially an even more insidious threat to the security of the 
United States for two reasons: (1) Their large, up to 10-ton payload 
capacity, and (2) the extraordinary difficulty of detecting these 
vessels at sea. This makes them a dangerous drug conveyance that could 
potentially be adapted for transporting other more serious security 
threats to the United States.\13\
---------------------------------------------------------------------------
    \13\ Office of Naval Intelligence, Assessments of seized SPSS and 
FSVs.
---------------------------------------------------------------------------
    The SPSS is typically constructed in undergoverned spaces, often in 
the sparsely-populated mangrove estuaries of Western Colombia and 
Ecuador. Costing less than a million dollars apiece to construct, they 
can move enough cocaine in a single trip to generate more than $100 
million in illicit proceeds for the traffickers.\14\ JIATF-South 
detected an SPSS at sea for the first time in 2006. By 2009, the 
interagency detected as many as 60 SPSS events were moving as much as 
330 metric tons per year. Prior to 2011, SPSS had only been employed by 
traffickers in the Eastern Pacific. However, since July 2011, JIATF-
South has supported the disruption of five SPSS vessels in the Western 
Caribbean, each carrying more than 6.5 metric tons of cocaine. There 
have been a total of 214 documented SPSS events, but only 45 were 
disrupted due largely to the difficulty of detecting such low-profile 
vessels.\15\ The Congress, deserves a note of thanks for its foresight 
and wisdom in enacting 18 USC  2285, the Drug Trafficking Vessel 
Interdiction Act of 2008, which made the mere operation of these 
stateless vessels in international waters a crime. This has greatly 
helped interdiction efforts because it eliminated the necessity for law 
enforcement authorities to recover contraband in order to affect 
successful arrests and prosecutions. The SPSS was an evolutionary step 
in the creation of a covert capability to transport multi-ton loads of 
contraband without any logistical support or refueling. This capability 
is now present in the FSV. These vessels can get underway from the 
source region, fully loaded with up to 10 metric tons of cocaine and a 
crew of four, and travel up to 6,800 nautical miles unsupported.\16\ 
Though there is currently no intelligence of shipments directly to the 
United States, this is a range capacity that can take an FSV from the 
west coast of Colombia to the coast near Los Angeles, or from the north 
coast of Colombia to Galveston. Unlike the SPSS, the FSV power plants 
are typically complex diesel-electric systems that allow them to 
operate submerged by day on battery power and to run on the surface at 
night while recharging their batteries. As complex and sophisticated as 
they may appear, FSVs are constructed in the same undergoverned 
locations as SPSSs. These areas are very difficult for law enforcement 
or even military forces to reach. However, three FSVs have been seized 
in remote jungle areas, the first in Ecuador in 2010, and the last two 
in Colombia. Each of these three vessels was unique in its construction 
and had cargo capacities of over 7 metric tons. In 2011, the 
Interagency documented three FSV movements, none of which were 
successfully interdicted.\17\
---------------------------------------------------------------------------
    \14\ JIATF-South and Office of Naval Intelligence assessment of 
seized SPSS.
    \15\ Interagency CCDB.
    \16\ Office of Naval Intelligence, Assessments of seized FSVs.
    \17\ Interagency CCDB.
---------------------------------------------------------------------------
  operation martillo: supporting regional stability/national security
    Record interdiction years in the mid-2000s caused TCOs to react and 
mitigate their risk in several ways. SPSSs and FSVs were developed and 
their operations refined. Go-fast load sizes were reduced while the 
number of events increased significantly. Most alarmingly, TCO 
operations at sea were moved from deep water, where technological 
advantages favored U.S. interdiction forces, to the Central American 
littorals.\18\
---------------------------------------------------------------------------
    \18\ 2010 Interagency Assessment of Cocaine Movement.
---------------------------------------------------------------------------
    This operational migration toward the Central American isthmus 
created an increasingly difficult and destabilizing situation whereby 
primary drug movements from the source zone made landfall earlier, 
often in countries incapable of stopping them. Operating in and around 
the territorial waters of Central America made international 
cooperation and bi-lateral agreements all the more critical to our 
success.
    To counter this shift in flow and to alleviate pressure on Central 
American countries, Operation MARTILLO began in earnest on 15 January 
2012. It is one component of a U.S. whole-of-Government approach to 
counter the spread of Transnational Organized Crime (TOC) in Central 
America. By demonstrating a consistent presence in the littorals of 
Central America, the United States, and our international partners seek 
to force TOC networks to move their transshipment routes to deeper 
waters in the Pacific and Caribbean. Operation MARTILLO demonstrates a 
clear commitment on the part of Western Hemisphere nations and other 
allies to work together to combat the spread of TCOs, and to protect 
their citizens from the violence, harm, and exploitation wrought by TCO 
networks. Operation MARTILLO created a framework whereby complementary 
operations by partner nations and other U.S. Government agencies could 
increase the effectiveness and synergy against TCOs in a difficult 
budget and operating environment. 
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Since 15 January, JIATF-South has documented significant decreases 
in the flow of illicit drugs in the Central American corridor (see 
graphic above). Compared to the same period in 2011, the JIATF-South 
documented flow of illicit drugs in the Central American corridor 
dropped by 46 metric tons. While cocaine flow is down in most of the 
region, we did note a significant increase in activity in the Eastern 
Pacific littorals which we attribute to increased awareness of tracks 
brought by enhanced focus of our interagency and international partners 
in the region.\19\ Our law enforcement partners are expending great 
effort to provide actionable information to support the operation. This 
translates to a significantly increased awareness of the movement of 
cocaine over previous years.
---------------------------------------------------------------------------
    \19\ JIATF-South analysis of CCDB and JIATF-South case analysis.
---------------------------------------------------------------------------
    The overall significant decrease in movement indicates an impact on 
the traffickers caused by the presence of U.S. ships and aircraft, the 
efforts of our law enforcement partners and those of our allies and 
partner nations in the region. Further illustrating the commitment of 
our hemispheric partners, I note that partner nations have participated 
in 83 percent of disrupted events, acting as a force multiplier and 
playing an enormous role in the success of the operation. Though we 
have not yet seen the traffickers shift to another region in the Joint 
Operating Area, we assess that a continued persistent presence over 
time will force them to change their tactics and we are prepared to 
respond to that shift when the time comes.
                                closing
    Our target set spans the full spectrum of National and 
international security, presenting a formidable transnational challenge 
for U.S. and allied nations. We fight a highly mobile, disciplined, and 
well-funded adversary that threatens democratic governments, terrorizes 
populations, impedes economic development, and creates regional 
instability. The mission to counter transnational organized crime and 
illicit trafficking cannot be viewed in isolation from our efforts to 
combat terrorism, because the patterns, tactics, and techniques 
employed by traffickers are the same as the methodologies used by 
anyone wanting to move illicit people or cargo--including terrorists.
    Our operational successes indicate an increasing level of 
trafficker sophistication and innovation as they rapidly employ readily 
available cutting-edge technologies, change their tactics, and shift 
seamlessly between modes of communication and methods of conveyance. 
Our success is dependent upon our collective capability to be more 
innovative, more adaptive, and more agile than our adversaries. 
Currently, we are unable to target 74 percent of high-confidence 
events. Of the 26 percent that we are able to target the principle 
impediment to successful detection and monitoring is the lack of the 
necessary sensors to generate persistent wide-area surveillance and 
precision geolocation. In spite of our challenges, we continue to be 
successful for two primary reasons. First, JIATF-South is a dynamic and 
evolutionary organization, one continuously adapting itself to evolving 
target sets. Second, the National and international unity of effort 
found within our command spans geographical and functional boundaries, 
bringing with it operational efficiencies and critical capabilities.
    I close by once again thanking the Congress for its steadfast 
support of our men and women in uniform, who work every day to keep our 
Nation safe and I look forward to our continued collaboration to 
counter transnational organized crime and the illicit traffic that 
supports it.

    Mrs. Miller. Thank you very much.
    I certainly thank all the witnesses for your excellent 
testimony. Not quite sure where to start with all that. Tried 
to take some notes while you were all talking.
    One thing I would say to Admiral Lee, when you mentioned 
about the Shiprider, which is a thing I am--an issue I am very 
familiar with along the Northern Border in particular, and the 
Coast Guard has been fantastic on taking such a leading role 
and getting such a fabulous partnership that we have with our 
Canadian counterparts--I sort of thought a pilot of that, 
almost, was when Detroit hosted the Super Bowl back in--I 
should know this; I should ask Hansen Clarke, from Detroit--
when was it, 2006 or 2008? 2006? Okay.
    But at any rate, that was sort of a pilot program, I think, 
because of the Detroit River there between the Canadians and 
our U.S. Coast Guard, and that has worked out extraordinarily 
well, and now, of course, has expanded throughout the entire 
northern tier. So it really is a fantastic thing.
    Actually, we just reauthorized that in our SMART Port bill, 
which was marked up by this committee recently and hopefully 
will have some floor time shortly, at least before the August 
recess. I think the Canadian Parliament, as well--I have talked 
to a number of the M.P.s there, and the ambassador, et cetera--
they are hopeful that they will be authorizing it this year 
some time. So that, as I say, Shiprider is a great, great 
program.
    I want to talk a little bit about the pangas, though. You 
all mentioned them. In fact, I was just taking some notes when 
you were talking--I thought I knew more than I did. Obviously 
that is why we are having this hearing. Ten-ton payload is 
quite something, really, the ability to have that and to travel 
6,800 nautical miles. They can build them for less than $1 
million. I mean, essentially they are just building these 
things and will scuttle them, right? They are not really of 
value to them once they deliver their payload of whatever they 
do have in there.
    You talked about interdicting them and that. How is the 
Coast Guard actually able to detect them readily, and is--are 
there technologies that would be helpful for the Congress to 
prioritize some spending to that? Is it just technology? Is it 
human intel that you are basically--you know, if we learned 
anything from 9/11 it was a mistake that our country made of 
not prioritizing intelligence spending previous to the war on 
terror.
    That is how we caught Saddam Hussein. With all the 
technology we had it was really human intel that caught him. I 
think there is no second for human intel. I would guess that 
that is probably true with the pangas as well, and the tunnels.
    But I am not sure who I am directing this to, but I would 
like a little more information about what we could do to assist 
your mission better in regards to gathering intelligence and 
interdicting more of these pangas, which are travelling further 
and further up the northern shore of California. It is sort of 
like having a handful of jelly: You get one--you know, you get 
this and it is coming out the next finger, right? It just keeps 
sort of moving.
    Who would like to take that?
    Admiral Michel. I will take that, Chairman Miller, to start 
off with.
    First of all, just for a point of clarification, the types 
of vessels that we are talking about, when I was talking about 
10 metric ton-payloads, those were on semi-submersibles and 
fully-submersible vessels. Those are special built either low-
profile vessels or true submarines, if you can imagine that, 
and those can carry up to 10 metric tons.
    There is another class of vessels, the pangas and go-fast 
boats, which are like speed boats with outboard motors, some of 
which are very large--and I think we heard Mr. Dinkins and Ms. 
Bucella talk about the even larger ones off the coast of 
California that they have seen in the past, so there are a 
couple different styles of vessels.
    The semi-submersible and fully-submersible vessels are 
stealthy vessels. They try to avoid detection. They are not all 
that fast but they try to avoid detection. The go-fast boats 
and pangas are primarily out there because they are small and 
very speedy, so that is the way that they try to evade 
enforcement.
    But both types of craft, because they are very small and 
they operate in the maritime environment, require very 
sophisticated intelligence techniques. The water spaces are 
just too large.
    My joint operating area, ma'am, is 12 times the size of the 
United States, and you can imagine finding a submarine in an 
area the size of the United States. So you have got to do it 
via intelligence.
    At JIATF-South about 85 percent of our cases are cued from 
human intelligence. These are law enforcement sources, 
including all the DHS partners you have represented here. That 
gives us the initial cuing.
    Then once the vessel gets to sea we have to detect and 
monitor that and we do that through a whole bunch of different 
intelligence, and surveillance, and reconnaissance techniques, 
again, involving all the Department--all the partners here at 
the Department of Homeland Security. So it would be everything 
you could imagine: Aircraft, such as the CBP P-3s or the Coast 
Guard C-130s, or surface vessels, or any of the other 
intelligence apparatus that the Nation can bring to bear. That 
is the only way you are going to have a chance against these 
very, very small vessels.
    Mrs. Miller. Yes, Admiral.
    Admiral Lee. It is a combination of all of the above. It is 
both intel, it is sensor technology, and it is the resources 
that we need to maintain our layered defense. Your combination 
of all of those will help us to close on end-game.
    Mrs. Miller. What is the sensor technology? I mean, is 
radar utilized for the pangas? Are they able to be picked up by 
that?
    Admiral Lee. There are various sources, but it is radar, it 
is military patrol aircraft, it is being able to see what is 
out there and maintain maritime domain awareness. We need the 
bigger picture so that we can place our limited resources in 
the right vector, the right spot, so that we can close on the 
adversary.
    Mrs. Miller. If I could, I am just going to ask a question 
about the tunnels, as well. My time is going here, but I have a 
particular interest in that--the Ranking Member and I were just 
sort of chatting while you were talking about that--where they 
are actually being built. I mean, they are probably not being 
built along the Rio Grande, or where you have got running sand 
or the soil conditions, et cetera. So you principally are 
seeing those along the--or the California border?
    Also, what kind of technology can you even utilize to find 
those kinds of things as they are being built? I don't know if 
there is any kind of underground types--I don't know what the 
term would be to be able to even be able to see anything like 
that being built. Could you expand a little bit on the tunnels?
    Mr. Dinkins. Sure, ma'am. First of all, most of the 
sophisticated tunnels that we see and discover are in the San 
Diego area and Southern California area, and those tunnels can 
be as long as, you know--we discovered two in December. One was 
a half a mile long. It literally had a rail system in it with 
rail cart to shuttle stuff back and forth.
    The good news is we are increasingly interdicting and 
discovering the tunnels before they become operational, so as 
time has gone on our ability to locate them is getting better 
and better, and a lot of it comes from public awareness. Most 
of our tunnels, and there is technology--worked with the 
Department of Defense, we have worked with the private sector--
but these are--you know, it is--the--we are talking about very 
narrow tunnels that go very deep and so trying to find an 
anomaly--it is not like trying to find oil or water. It is very 
difficult to find an anomaly. Also do it undetected, because if 
you start--if you believe there is a tunnel there and you start 
going over and start bringing in big equipment and testing it 
you are most likely going to scare them away and we will never 
bring them to justice.
    There are a lot of challenges but at the end of the day one 
of the most successful ways we have been able to do this is 
just through intelligence, like you said--working with the 
community, the same type of thing with the pangas. You know, 
these are not vessels that are, you know, are natural to 
Southern California and to--particularly to L.A. area, so 
having people just call us when they have information on those 
and suspect something is just not right as well as good old 
informant networks.
    Mrs. Miller. Do you have a--my last question--do you have 
some sort of a public awareness campaign that you have 
undertaken along the shores there of California, and et cetera, 
about the tunnels and the pangas, if people--``If you see 
something, say something'' kind of a thing, in particular with 
that?
    Mr. Dinkins. We do. It started out with the San Diego 
Tunnel Task Force doing just that--all the members going door-
to-door to businesses in a geographical area that would be 
susceptible for tunneling. Because they usually have to come up 
out of the ground and they want to do that in a warehouse. So 
talking with the businesses to say if somebody suspicious has 
come to lease property, and so forth.
    But in addition, with the pangas--and it has actually been 
pretty successful--is doing--and they just started this in the 
L.A. area--is talking to the community, saying, ``These boats 
right here, they are up to no good. If you see something, 
call.'' We do get a lot of leads that way.
    Mrs. Miller. Thank you.
    The Chairwoman now recognizes the gentleman from Texas.
    Mr. Cuellar. Thank you, Madam Chairwoman.
    Admiral Lee, you might not know the answer to this but I am 
still going to ask you this question: I guess about a year ago 
or 2 years ago I added a provision that called on the Coast 
Guard to look at the threats we had on the United States--well, 
Texas-Mexico border, the Rio Grande, try and get the Coast 
Guard to do a little bit more work on the navigable part of the 
Rio Grande, since it is international water. You spoke about a 
lot of stuff that you do at the Great Lakes and Canada or up 
there.
    The report came in a little bit after there was a hearing 
where two ex-generals came in and said that the borders--you 
know, they got paid $80,000 to do a report. They never got to 
see the border but they came out with the reports and there was 
a war zone down there.
    Your report came in a little bit after that, and basically 
your report said--and I am talking about the Coast Guard--
basically said, what is happening across the river, threat is 
very high; what is happening on the U.S. side--smuggling 
drugs--very low threat. So basically went counter to what some 
of the Members and other folks are saying. I am one of those, I 
think it is more in the middle. I mean, I think it is, you 
know, we have got to do a little bit more.
    But I found it interesting that Coast Guard, based on the 
intelligence and based on some of the work that you all did 
with the other agencies, basically said, ``There is no need for 
us to put any more assets down there because everything is 
under control, basically, but if there is a problem you can 
call us and we will go in and help.'' Again, you might not be 
familiar with this report, but could you elaborate if you have 
any information, whether it is hearsay on this, personal 
knowledge on this report, on how that came up with that 
conclusion.
    Admiral Lee. Well yes, sir. I will attempt, although I 
cannot address any discrepancies with--between the two reports. 
I can tell you that I had a conversation last evening with the 
chief of staff of the 8 Coast Guard district, and I talked to 
him specifically about operations over in the Corpus Christi 
vector, including the Rio Grande, and asked--``tell me''--I 
told him I was testifying tomorrow--``Tell me what you guys are 
doing over there, and tell me what you would want me to say to 
the subcommittee.''
    He told me this: He says, ``Look, we are working very 
closely with our partners and CBP and we are running routine 
operations on a quarterly basis up in the two lakes, for 
example. And we are also''----
    Mr. Cuellar. I am sorry. Quarterly basis, just so everybody 
understands, means once every 3 months.
    Admiral Lee. I will have to get back with you on exactly 
how often----
    Mr. Cuellar. But roughly----
    Admiral Lee. He used the term ``quarterly,'' yes, sir. That 
would be Operation Javelina--and the Gulf side. The shore side 
one would be Sea Serpent. He told me that in both of those 
operations--for example, the one on the inland up in the lakes, 
they partner up with the Mexican army and on--and offshore we 
are partnering with the Mexican navy. He says these are on-
going and they intend to continue these types of operations. I 
hope that answers your question, sir.
    [The information follows:]

    Quarterly Operations.--The U.S. Coast Guard conducts one pulse 
operation each quarter for approximately 2 weeks on Falcon Lake and on 
Lake Amistad, using Coast Guard personnel from Maritime Safety and 
Security Teams (MSSTs). MSSTs are a versatile, highly-trained component 
of the Coast Guard's Deployable Specialized Forces (DSF). Most 
recently, in February 2012, MSST 91104 Galveston and MSST 91106 New 
York participated in operations on the Lakes. The Coast Guard restricts 
its operations to the navigable areas of Falcon Lake and Lake Amistad. 
Quarterly operations by the Coast Guard augment efforts of DHS 
partners, particularly Customs and Border Protection (CBP) and their 
approximately 9,056 border personnel, 66 facilities, 43 aircraft, 61 
vessels, and 27 checkpoints along the CBP main Sectors of Del Rio, 
Laredo, RGV, and Houston.
    Annual SW Border Lake/Offshore Operations.--Each year Customs and 
Border Protection's South Texas Campaign (STC) runs an annual operation 
along the SW Border Lakes called OPERATION JAVELINA THUNDER. The Coast 
Guard participated last year, but decided to add a robust ``coastal and 
offshore'' maritime component this year called OPERATION SEA SERPENT. 
Both operations are integrated, bi-national operations intended to 
create an environment that deprives Transnational Criminal 
Organizations (TCO) the ability to exploit the border along the Rio 
Grande and South Texas maritime domain. This year OPERATION JAVELINA 
THUNDER will run from July 11 to August 10. OPERATION SEA SERPENT will 
run from July 11 to August 24. Coordination between the two operations 
is managed by the Corpus Christi Regional Coordinating Mechanism (CC 
ReCoM).
    The objectives of OPERATION JAVELINA THUNDER and OPERATION SEA 
SERPENT are to:
    1. Disrupt and degrade TCO activities across the South Texas 
        Corridor, to include the Gulf Coast Littorals, utilizing a 
        risk-based analysis.
    2. Synchronize operations between the South Texas Campaign, USCG 
        Corpus Christi and STC communities of interest.
    3. Leverage and integrate DoD capabilities to counter TCO 
        activities.
    4. Increase maritime detections and interdiction (Sea Serpent).
    5. Increase collaboration with Mexico's Secretaria de Marina 
        (SEMAR).

    Agencies participating in the operations:

United States Law Enforcement Agencies
  <bullet> South Texas Campaign (STC)
  <bullet> Customs and Border Protection (CBP)
    <bullet> Rio Grande Valley Sector
    <bullet> Laredo Sector
    <bullet> Del Rio Sector
    <bullet> Laredo Field Office
    <bullet> Office of Air and Marine
  <bullet> U.S. Coast Guard, Sector Corpus Christi
  <bullet> Coast Guard Investigative Service
  <bullet> Coast Guard Maritime Intelligence Fusion Center Atlantic
  <bullet> U.S. Coast Guard, Air Station Houston
  <bullet> U.S. Coast Guard, Atlantic Area
    <bullet> Medium Endurance Cutter
  <bullet> U.S. Coast Guard, Deployable Operations Group
    <bullet> Maritime Safety and Security Teams
  <bullet> Corpus Christi Regional Coordinating Mechanism (CC ReCoM)
  <bullet> Air and Marine Operations Center (AMOC)
  <bullet> Department of Homeland Security (DHS) Predators (Maritime 
        and Land)
  <bullet> Drug Enforcement Agency (DEA)
  <bullet> Federal Bureau of Investigation (FBI)
  <bullet> National Park Service--Padre Island National Seashore
  <bullet> Homeland Security Investigations (HSI)
  <bullet> Office of Investigation and Intelligence Liaison (OIIL)
State and Local Agencies
  <bullet> Texas Rangers
  <bullet> Border Security Operations Center (BSOC)
  <bullet> Department of Public Safety (DPS)
  <bullet> Texas Parks and Wildlife
  <bullet> Local Law Enforcement Agencies (LEAs)
U.S. Department of Defense
  <bullet> Joint Task Force-North (JTF-N)
  <bullet> USMC 2D GSP (Ground Sensors)
  <bullet> BIG Miguel 12 (Aviation FLIR)
  <bullet> Civil Air Patrol (CAP) TXWG (Aviation Recon)
  <bullet> 339th AVN (Aviation FLIR)
  <bullet> 1 Combat Aviation Brigade (CAB) (Aviation FLIR)
  <bullet> Joint Interagency Task Force (JIATF)-South Coordination
  <bullet> National Guard (NG) TX Counter Drug--Task Force 
        Participation/Coordination
  <bullet> NG TX Aviation Element (FLIR)
  <bullet> Special Operations DET TX NG (RECON/NG SOD)
  <bullet> NG SWB-TX AVN Support (FLIR)
Partner Nation and National Agencies
  <bullet> Secretaria de Marina (SEMAR)
  <bullet> National Security Agency (NSA-TX) (Medina Station, San 
        Antonio, TX)
  <bullet> National Geospatial-Intelligence Agency (NGA)
    As part of OPERATION SEA SERPENT, the Coast Guard will send MSST 
91114 Miami to Falcon Lake from July 18 to August 12 and MSST 91104 
Galveston to Lake Amistad from July 19 to August 18. The next 
deployment to Falcon Lake and Lake Amistad will be in the first quarter 
of fiscal year 2013, as the Deployable Operations Group schedule 
allows.

    Mr. Cuellar. Well, I do understand--Corpus is way down 
there in the south. You have got to understand the geographic 
area. My friend here, Michael McCaul and I, we one time went 
with the Civil Air Patrol. We got in a low-flying plane and we 
went down the river. I mean, a very low speed, very low--and 
you have got to understand--let's say we started off in Laredo 
going down to Brownsville. That is a long way to go down there.
    Once a quarter I assume means every 3 months, which means 
that if you do a pulse every three quarters--I mean, a lot of 
things can happen between the first month and then the fourth 
month in between.
    The other thing is--and I do understand that CBP--in fact, 
we got in those airboats, McCaul and I, at Laredo, and we went 
up and down the river, and I know some of it is not navigable. 
I understand all that. But a lot of it is navigable, and if you 
go into the controversy that came up in the Lake Falcon, and 
then you have Lake Amistad also, there is a lot of space. So if 
you do that once a quarter--I do understand once a quarter 
means every 3 months--a lot of things can happen in between 3 
months. That is why I was asking for an explanation or the 
clarification what a quarter means, which I think we all know 
it is at least every 3 months.
    I am just saying, as if--maybe if you want to get back to 
us later, because I find it interesting that you all pretty 
much said, based on your intelligence, smuggling, drug 
trafficking, everything was very low. The threat was very low. 
So I just find it interesting that a lot of us--and I am sure 
Members here would say, well, we have got to do more. Some 
advocate for fences; some advocate for more UAVs; some advocate 
for more Border Patrol and all of that. I understand. But I 
just find it interesting that they came out--the Coast Guard 
came out with that report. You might not be privy to that; it 
might have been before your time.
    The other thing is--this goes to Ms. Bucella--does your 
current intelligence suggest that contraband smuggling will 
increase along the rail supply chain? If so, how will the 
mitigated funds be invested in securing this important part of 
global supply chain?
    I understand U.P. made an agreement for $50 million so you 
all are distributing that to certain parts. I assume you are 
working with Kansas City also on that, also. Then what efforts 
are you all using for using State and local law enforcement to 
help you? Because the first this is folks have said, well we 
don't have enough personnel. But if you talk to local law 
enforcement or State law enforcement I think a lot of them are 
ready to help you on that. So if you can talk about that.
    Again, Mr. McCaul and I, when we were on those airboats we 
got to see one of those rail things, and a lot of things could 
happen in there, and so if you can just mention--my time is up, 
but if you can just reply to those.
    Ms. Bucella. Sure. Mr. Cuellar, I think you know CBP does 
not work in a vacuum. I mean, our partners--DPS, Texas Rangers, 
all the State and locals--I mean, we all have to work together 
as a team. So yes, we do work very closely with our partners, 
and actually we are embedded in the Texas fusion center, DPS is 
going to send somebody to work with us, because really, the men 
and women on the ground every day in their neighborhoods 
probably are one of the best assets in the world for the human 
intelligence.
    On the rail, as you know, last year we started a rail 
fusion center, which is housed in El Paso. But that is a 
combination of not only the private sector U.P., as well as the 
State and locals, as well as CBP, as well as ICE, in trying to 
figure out the detection of how much of the narcotics are 
traveling to and from the United States in the rail cars.
    Whether or not we are seeing an increase I cannot say that. 
Are we now addressing it? Yes, we are. But as to any other 
particulars I would be happy to answer your questions if you 
would like to submit them to me and I can get those to you.
    Mr. Cuellar. Right.
    Ms. Bucella. Okay?
    Mr. Cuellar. All right. Thank you.
    Again, to all of y'all, thank you very much for being here 
with us.
    Mrs. Miller. The Chairwoman now recognizes the gentleman 
from Alabama, Mr. Rogers.
    Mr. Rogers. Thank you, Madam Chairwoman.
    I want to follow up on Mr. Cuellar's questioning on State 
and local government involvement. Can you give me some idea 
about the structure of how you bring them in? Do you bring them 
in at the planning, or you just call on them or use their 
information when they call you?
    We will start with you, Ms. Bucella.
    Ms. Bucella. Well, frankly, on the--in the State of Texas 
the Texas Rangers bring us in. I mean, we are embedded with 
many of their operations, and from the intelligence side of the 
house we try to give them some support not only tactically but 
strategically. So it is more of them bringing us in, because as 
CBP we are an interdiction agency, not necessarily an 
investigative agency, so we are constantly working with all of 
our partners.
    This is not a, you know, who is in charge. This is more of, 
we have got a problem and how can we best resolve the issue.
    With that, I mean, Mr. Dinkins can probably speak to this 
too, but ICE has been involved in HSI in many of the take-downs 
with the State and locals. Because again, there is plenty of 
work to go around for everybody.
    Mr. Dinkins. Sir, for example, we do about 90,000 new 
investigations at HSI each year and 60 percent of those cases 
are in partnership with State and local law enforcement and our 
Federal partners. So most of the leads that we get, and 
actually the bread and butter of what we do, are leads from our 
fellow law enforcement partners.
    At ICE we actually have the ability to cross-designate 
them, which adds a lot of value to giving them actually even 
border search authority, and not only on the BEST task force 
that we have but also just in--from child exploitation task 
forces to IP theft tax forces. We use them in basically every 
area from human trafficking that we investigate, including 
gangs.
    Mr. Rogers. All right. Thank you.
    There has been an evolving tactic of very sophisticated 
forged documents--identification documents, the newest 
electronic digital security systems. From what I understand, 
some of the forgeries have replicated holograms, PVC plastic 
identical to that in a credit card, inks appearing only under 
ultraviolet stamp lights. Do you agree? Are you seeing these 
kind of sophisticated forged identification documents? Is that 
an exaggeration as to how good they are?
    Mr. Dinkins. No, we have. As technology has gone down in 
price of--and so criminal organizations can buy some of the 
best technology out there--even unsophisticated criminal 
organizations. It lends to a higher quality of counterfeiting.
    Mr. Rogers. Are you seeing much of this come out of China, 
or do you know where it is coming----
    Mr. Dinkins. We see some of it come out of China, but now--
today you don't necessarily have to be based overseas even to 
produce a lot of our counterfeit documents that we see. A lot 
of them are produced right here in the United States. We have 
document and benefit fraud task forces in all of our special 
agent in charge offices that----
    Mr. Rogers. So where do you get those leads, primarily?
    Mr. Dinkins. A lot of those things come from our local law 
enforcement who get complaints about them being used at a 
particular place. But also, we try to go after the vendor, 
because the individual buying the--may be just buying for work 
or they may be buying it for some other--something other, more 
serious. But ultimately we try to go after the vendors and the 
manufacturers. They are manufactured overseas in some cases, 
but actually, in the United States they are manufactured, as 
well.
    Mr. Rogers. I have the privilege of also serving on the 
Armed Services Committee, and one of my frustrations has been 
there has not seemed to be, from my perspective, an effort by 
CBP to incorporate technologies that we have been using in 
theater in Iraq and Afghanistan along the border. For example, 
the DOD has used aerostats a lot more than we have.
    But I am interested--is there an effort by CBP to try to 
incorporate and network with the DOD to take the technologies 
that have proven to be effective there for use on the border?
    Ms. Bucella. Yes. As a matter of fact, I just met with OSC 
yesterday. I have a very good relationship with DOD and we have 
been using a lot of their technologies because obviously we can 
evaluate them in a noncombat zone, and as a result there are 
some of our technologies that we have been able to evaluate 
that actually DOD has actually employed overseas. So I am not 
quite sure what----
    Mr. Rogers. Well, I am curious, why don't you use more 
aerostats and blimps----
    Ms. Bucella. The----
    Mr. Rogers [continuing]. Which can loiter for long periods 
of time and see deep into Mexico?
    Ms. Bucella. I know that there has been some of the 
aerostat technology that has been available. The problem or 
challenge for us is the funding part of how you make----
    Mr. Rogers. That is our problem. You just need to tell us 
what you need; it is our problem to figure out if we can pay 
for it or not.
    Thank you very much. I will yield back.
    Mrs. Miller. Thank the gentleman.
    The Chairwoman now recognizes the gentleman from Detroit, 
Mr. Clarke.
    Mr. Clarke. Thank you. Thank you, Madam Chairwoman. It is 
an honor to be referred to as the gentleman from Detroit. Thank 
you. No, I prefer Detroit. It is wonderful.
    In our efforts to help stop terrorism, smuggling, 
trafficking--this is a question to any of you here--how can we 
better partner with private industry to further develop those 
technologies that we need to protect our people but also could 
help create jobs, especially along the Northern Border?
    Admiral Lee. I am going to take a stab at it. That is a 
tough question, sir. How can we better partner? I can tell you 
with certainty that industry is constantly coming to us wanting 
to sell us new technology and we are constantly evaluating it. 
We look across the spectrum with our interagency counterparts 
and we try to evaluate those technologies to the best of our 
ability and, where possible, purchase them and apply them to 
our mission efforts.
    But insofar as how to create more jobs on the Northern 
Border, that is outside of my ability to answer, sir.
    Mr. Clarke. You know, my concern about jobs, though, that 
would just be a byproduct of our partnership with private 
industry, many times who--they have the innovation to actually 
develop those technologies to help better monitor the borders 
and better coordinate responses. Just from your perspective, 
though, where do you see the opportunity of working with--or 
continuing to work with--private industry on developing or 
maintaining those technologies?
    Admiral Michel. I can jump here from my world of work, and 
this kind of goes back to Chairman Miller's question about 
detecting and monitoring small craft. We regularly work with 
industry to test their products down-range against our 
adversary.
    We have a National Battle Lab at Joint Interagency Task 
Force-South where we encourage vendors as well as academia to 
come down and try their detection and monitoring technology and 
we will run it against a real target set--against the bad guys 
who are running these semi-submersibles, or these panga boats, 
or fishing vessels with hidden compartments, all that type of 
stuff. We have tried all different types of technologies--
everything that you can imagine--down at Joint Interagency Task 
Force-South, and we don't have to simulate an adversary.
    If you want to come down and you say your technology does--
you know, is able to detect a panga boat 50 miles offshore when 
it is moving at 40 knots, we encourage you to come down to 
JIATF-South and we will tell you whether your technology will 
work in the real world. We have had a number of successes 
across all different types of intelligence capabilities, 
particularly in detection and monitoring of those small vessels 
we talked about as well as aircraft that we have run through 
the mill in a noncombat-type format. A number of those have 
been employed overseas by the military services as well as by 
private industry.
    We have an open door for anybody who wants to come down and 
try to work against our targets that will tell you whether your 
technology works or not. If it does and it is able to prove 
itself in that type of an environment that is a real 
endorsement for the--that type of technology.
    Mr. Dinkins. Sir, and I can mention one area as far as 
partnership, and we do--and a good example of that is with the 
financial sector. So you have all these businesses, financial 
institutions who, they basically operate the systems that 
criminal organizations are trying to exploit, so we meet 
regularly through a program where we have trained, I think, 
over 50,000 members of the financial community on what type 
of--typologies we are seeing that criminal organizations have 
tried to move their money. How will they try to beat the 
financial institutions' checks and balances to get it in 
their--anti-money laundering programs? How will they try to 
beat their system to try to get their illicit proceeds into the 
financial institution? Because once it is in the financial 
institution it can be sent around the world.
    So we meet regularly with--this is, for example, really 
good success in human trafficking and human smuggling. So this 
is what we are seeing from our criminal investigations. This is 
what we are--you know, from--when you arrest 30,000 people and 
you are asking them, ``Well, how were you going to launder your 
money?'' you can get some very good intelligence. We share that 
with the financial institutions. They actually can re-change 
the algorithms that they are doing, just like we do when we are 
trying to screen people coming into the United States. They can 
change the metrics on what they are looking for to create red 
flags for suspicious activity that, had they not known that it 
was suspicious and that is the new trend they wouldn't have 
been able to detect. We have had very good success and that is 
just one example in the financial institutions where we have 
had good success.
    Ms. Bucella. We at CBP have had great success not only with 
the Office of the Secretary of Defense in trying out different 
platforms and technologies dealing with technology, but also 
the sharing of information with the express consignment 
carriers. You know, we partner with them. Just private 
industry's business model, you know, they do risk-based. It is 
based on economics. For us it is based on threat. Sitting 
around the table as we do on a pretty routine basis of getting 
together we are able to share sort of what works for us and 
what doesn't work.
    In some instances, for example, private industry sees 
anomalies on some things. Might not be a threat but it might be 
enough that we all have to incorporate and change the way we 
are doing business. For us it is enforcement and for private 
industry it is how they progress to the next level.
    Really, we are not working independently. Also, with DHS, 
through the Office of Science and Technology, they are 
constantly bringing new technologies for us to at least 
explore, talk about, and figure out what kind of interest we 
need and what the threat is.
    Mr. Clarke. Thank you.
    I yield back my time.
    Mrs. Miller. Thank the gentleman.
    The Chairwoman now recognizes the gentleman from South 
Carolina, Mr. Duncan.
    Mr. Duncan. Thank you, Madam Chairwoman.
    Like to, panel, delve into a little bit about the, I guess, 
connection between terrorist organizations and what we see 
going on on the border with the aspect of tunneling, and I want 
to point out that the posture statement of General Douglas M. 
Fraser, United States Air Force commander, Southern Command, in 
6 March he says that we do see evidence of international 
terrorist groups benefiting from the intertwined systems of 
illicit trafficking and money laundering in our area of 
operations; in South America funding Hezbollah is raised 
through licit avenues, such as charitable donations, and 
illicit means, including trafficking in drugs, counterfeit, 
pirated goods, et cetera.
    But then Rear Admiral Michel says that while this potential 
exists today Joint Interagency Task Force-South and U.S. 
Southern Command have not seen any indication of terrorist 
organizations or their affiliates using illicit trafficking 
networks to reach the United States to commit acts of 
terrorism. So there is a little bit of contradiction there, I 
believe, in those statements.
    But we have seen an increase in tunneling. We have seen, in 
the last 10 years, I think--well, a little longer than that--
155 new tunnels; in the last 4 years, 75-plus new tunnels, more 
sophistication with the rail, and lighting, ventilation.
    So first off, I want to ask the rear admiral to address the 
contradiction and then I would like to delve into the tunnels 
themselves.
    Admiral Michel. Yes, sir. Well, first of all, General 
Fraser is my boss so whatever General Fraser says is, by 
definition, correct.
    Mr. Duncan. Good answer.
    [Laughter.]
    Admiral Michel. But nonetheless--and I have to go on my 
statement to what you are referring to, but I think General 
Fraser is raising the point that there are definitely 
connections between the drug trade and terrorist organizations. 
I think there have been identified somewhere around 19 
different terrorist organizations that fund at least part of 
their operations from drug trade. The FARC is an example of 
that in Columbia, which is a terrorist organization that gets a 
lot of its proceeds from drug trafficking.
    I will have to go back and look at my statement, but I 
think I was making reference to those types of conveyances--the 
semi-submersibles and fully-submersibles. We do not have any 
evidence and there have not been any intelligence indications 
of use of those craft for anything other than drug trafficking 
purposes. That becomes particularly important because the rules 
of engagement set for stopping a semi- or a fully-submersible 
therefore default to law enforcement rules. So you have got to 
use non-deadly force to stop a submarine. I mean, you can only 
imagine the challenges associated with that.
    So I think what I had made reference in there was the use 
of these particular conveyances by terrorists or for terrorist 
purposes, and we have not seen any indications----
    Mr. Duncan. I wasn't trying to trap you on that or--I just 
wanted to see, for my understanding, what the difference was. 
Because I do believe that there is--and I think June of last 
year indicates that there is a connection between the terrorist 
organizations, Hezbollah, Quds Force and the Mexican drug 
trafficking organizations, with the example of the Saudi 
ambassador assassination attempt. It wasn't lost on a lot of us 
that have followed this issue--and I am a freshman Congressman, 
but we have delved into this a number of times--wasn't lost on 
a lot of us that Hezbollah or the Quds Force contacted what 
they thought was a Mexican drug cartel operative to try to get 
into this country and bring God-knows-what to assassinate the 
Saudi ambassador. So that didn't surprise a lot of us.
    I am going to ask Ms. Bucella, how has--or has the CBP 
noticed any similarities between the border tunnels on the 
Southwest Border and the tunnels used by the groups like 
Hezbollah in the Middle East?
    Ms. Bucella. Well, there is a huge difference in Arizona 
and Nogales area, based on the underground sewer system, those 
are very rudimentary--you could just basically--in many parking 
lots in Nogales you will see holes that have been filled back 
in again. Those are not the sophisticated tunnels.
    Plus, the tunnels that are being--or the one tunnel that we 
have seen in San Diego where they are using horizontal 
directional drilling. That is very, very sophisticated. They 
have to bring engineers to do those.
    Mr. Duncan. Similar to what you would see in Southern 
Lebanon?
    Ms. Bucella. I think Southern Lebanon would be a lot more 
like Nogales.
    Mr. Duncan. Really? Okay.
    Ms. Bucella. Mr. Dinkins, with the Tunnel Task Force, they 
have been monitoring sort of the sophistication of the tunnel. 
But I do believe from some of the detection and some of the 
ability that we have been able to use technology from DOD, some 
of the rudimentary is very similar.
    Mr. Duncan. In my limited amount of time talk about 
techniques that we are using to try to spot these tunnels--
radar, forward-looking, anything like that.
    Mr. Dinkins. There is ground-penetrating radar, I guess it 
is called. I am not an expert on the technology side. But there 
are some techniques--vehicle-deployed as well as many other DOD 
techniques, which they have developed long, truly tested, you 
know, in Afghanistan and that region.
    So we are trying some of those. We are trying to use some 
of those. It ultimately comes down, our great success has been 
when we find out or hear about a tunnel is usually from a tip, 
from a source, and we are able to then, you know, develop an 
investigation, get in the organization, do wiretaps, and so 
forth, to actually find out about it. That has been our 
success.
    The technology has played a role. You know, we use robotics 
once we actually are able to find the tunnel to go in and clear 
it, to make sure it is safe--because many of them are not safe. 
The one in San Diego that had 30 tons of marijuana, they were 
doing a very good job leading up to the point where they were 
going to come up out of the ground in the warehouse, and at 
that time their greed took over and then they just made a--you 
know, they dug the last 20 feet as fast as they could. I was 
down there 2 days later and it was already starting to cave in. 
So it can be very dangerous, as well, for us to search them, so 
we use robotics in that sense.
    We have continued to go from oil industry, to the private 
sector, to working with Israel, who has a lot of experience in 
Gaza with tunnels, looking for that, you know, technological 
solution, but we haven't found that yet.
    Mr. Duncan. Thank you all for what you do to keep our 
country safe. You have quite a challenge in your mission and I 
wish you the best of luck.
    I yield back.
    Mrs. Miller. Thank the gentleman.
    The Chairwoman now recognizes the gentlelady from Texas, 
Ms. Jackson Lee.
    Ms. Jackson Lee. I thank the Chairwoman and the Ranking 
Member and the witnesses that come forward. I am going to have 
some--if you get your little notepad as I get mine, because I 
am going to ask a series of questions if I--appreciate it if 
you could answer them. I am going to ask a general question 
about the whole issue of individuals crossing the border and 
looking at the 2011-2012, or looking at--we are now 2012 to 
reflect on whether we have seen--what kind of crossings that we 
have seen. Have we seen a decrease?
    Let's separate drug cartels and violence from individuals 
who are known to cross the border for work reasons, or we know 
that just recently individuals report in Arizona a 6-year-old 
was determined to be on--be in the vehicle and no one admitted 
to being the parent of that 6-year-old. So we know that we do 
have these incidents.
    Try to not say that it is not your area. You are all 
getting information so I would imagine that you would have it.
    Just quickly, Ms. Bucella, what has been the intelligence 
in terms of the crossings by the population that we are used to 
outside of terrorist-driven or violence-driven through drugs 
and otherwise? You have intelligence on that?
    Ms. Bucella. We have been able to detect people not only 
just coming across the border but sharing information with our 
Mexican counterparts and stopping people from coming across the 
border----
    Ms. Jackson Lee. But have you seen a decrease or increase 
over the last 2 years, 3 years?
    Ms. Bucella. In Arizona we have seen a decrease.
    Ms. Jackson Lee. I am just going to go quickly. Thank you.
    Mr. Dinkins.
    Mr. Dinkins. I believe that we are----
    Ms. Jackson Lee. I will get more pointed questions. I just 
want to quickly go through. Let me make sure that I am----
    Okay. Is that Admiral Lee?
    Admiral Lee. Yes, ma'am. In the maritime domain I can tell 
you that since 2009--that was a banner year for migrants for 
us--we have seen a general decrease. However, for 2012 our 
projections are slightly up.
    In 2009, overall--this includes the migrants from Mexico, 
Dominican Republic, Cubans, and Haitians, we saw a--we had 
numbers at 6,684----
    Ms. Jackson Lee. What year is that?
    Admiral Lee. That was in 2009.
    Ms. Jackson Lee. All right.
    Admiral Lee. Projected for fiscal year 2012--2012--we are 
looking at 2,360, according to our intelligence.
    Ms. Jackson Lee. An increase of 2,360? Because you said 
6,684, so that is going down.
    Admiral Lee. To correct the record, ma'am, in--what I meant 
to say was in 2009----
    Ms. Jackson Lee. Yes.
    Admiral Lee [continuing]. The over 6,684----
    Ms. Jackson Lee. Right.
    Admiral Lee. We project the number to be 2,360 in 2012, so 
that is a lot less than 2009.
    Ms. Jackson Lee. Okay.
    Admiral Lee. But it is up from last year by about 150.
    Ms. Jackson Lee. All right.
    Admiral Michel.
    Admiral Michel. Ma'am, it is really not appropriate for me 
to comment on that because my joint operating area is actually 
to the south of the Southwest Border, so I deal with products 
as they move toward the Southwest Border.
    Ms. Jackson Lee. Thank you.
    Thank you very much for that. I think that is a very 
provocative assessment and statement because I am going to 
collectively say I think we have been focused, and when I ask 
you this next question you might just add into your answer, do 
you think there have been heightened collaboration among the 
agencies on this question of individuals transporting 
themselves over the border? In the instance I tried to separate 
you from our enhanced work that we need, which is bad actors, 
either through drug trafficking, or human trafficking, or 
either through potential terrorist acts. So I wanted to 
separate that out.
    So I am going to go right, Mr. Dinkins, to this question: 
What are the trends you are seeing in human trafficking, which 
we all abhor? For example, are there more cases involving 
trafficking for sexual purposes, or for forced labor? Are you 
seeing an increase in children being trafficked?
    I am going to have a follow-up question, so I see my time--
let me just give the follow-up question. The U.S. Department of 
Justice has indicated that the I-10 Corridor in Houston, going 
up through Louisiana, was identified as one of the main routes 
for human traffickers in the United States, and as of 2010 all 
human trafficking victims certified in the United States, 25 
percent of them were in Texas. We have a focus on that area. So 
I am very interested in where we are in that, if you would, 
please? And comment on the I-10 Corridor.
    Mr. Dinkins. Yes, ma'am. I will work backwards. Texas is 
probably--our special agent in charge offices from Dallas and 
Houston to San Antonio are probably the lead for HSI and ICE's 
investigative efforts in human trafficking, and it may be as a 
result of exactly what you are saying, it is because of the 
volume that is going through that area, although I do not--I 
have not actually seen that report.
    I will say that the--what we have seen is--it is hard to 
predict this, and I will explain why. It is because we have 
given it so much more emphasis now in the last 2 years, really 
working and focusing on human trafficking. So we are seeing it 
a lot more; I just don't know if it existed before we were--we 
gave it such a concerted effort.
    It does involve, usually, purposes for sexual exploitation, 
and in many cases we have seen where the internet is getting to 
be involved in it, where as you go advertise overseas, for 
example, for somebody to come here and be a nanny and when they 
get here they actually find out that they are going to end up 
being trafficked into sexual servitude.
    Ms. Jackson Lee. Madam Chairwoman, if I could just indulge, 
I am trying to--the I--so are you familiar with the I-10, or 
you are saying that it is a serious problem and you are focused 
on it, but it is on-going. Is that my understanding?
    Mr. Dinkins. Yes. I don't know about I-10 specific, but I 
can tell you----
    Ms. Jackson Lee [continuing]. DOJ report.
    Mr. Dinkins. Yes. But coincidentally, our special agent in 
charge offices in Texas are usually some of the leaders in 
bringing the cases to--trafficking cases to justice. We saw 
that around the Super Bowl when it was in Dallas--large number 
of--of human trafficking arrests. So it definitely is an area 
that we are focusing on, I just, I can't specifically comment 
about the I-10.
    Ms. Jackson Lee. Okay. Do you have the resources you need?
    Mr. Dinkins. That is a good question. I can tell you that 
we probably have more resources--probably we have more 
resources dedicated to human trafficking than ever before, and 
we recently received additional funding, which, instead of 
getting agents, what we did increased the number of agents we 
had, we actually also increased the number of victim witness 
coordinators and child forensic interviewers because when you 
do find a traffic victim you do not want an agent with a gun 
interviewing them; you want somebody that is a professional who 
cares about their needs first and not the case, and we have 
hired, I think, I believe another 18 of those around the 
country.
    Ms. Jackson Lee. I thank the Chairwoman for her indulgence. 
I yield back.
    Mrs. Miller. Thank the gentlelady.
    The Chairwoman now recognizes the gentleman from Texas, Mr. 
McCaul.
    Mr. McCaul. Thank you, Madam Chairwoman.
    Let me just first give praise where it is due.
    Ms. Bucella, the coordination, I think, between your 
agency, our Texas Rangers, and Department of Public Safety has 
never been better. It is a great, you know, Federal, State, and 
local effort down there, and the border sheriffs, as well.
    So getting to the issue of the DOD assets--and Congressman 
Cuellar and I have been focused on this for probably about 2 
years now, in terms of coordinating the assets that we have 
overseas to use on the Southwest Border, and northern, as well. 
Can you tell me what assets are available that you would want 
to use?
    Ms. Bucella. First, the technologies, because they really 
are sophisticated and DOD could afford those things, so if 
there is anything that we could use for that. One of the things 
that--one of the greatest assets that we are getting are the 
people. As we are doing the drawdown, men and women, I have 
hired seven full-motion video analysts. So it is a unique skill 
set, and obviously for those that were been in the combat zone 
that has been terrific.
    We have also been able to purchase some of the assets that 
are being retired, as the helicopters, from the Marine Corps, 
with parts so that we can--are able to use them.
    But as the drawdown comes we are in active discussions with 
DOD just to make sure that we can use some of their assets that 
they have retired. But again, more importantly, the men and 
women coming back, unbelievable skill set in analytics, 
unbelievable drive for mission. They understand what is going 
on.
    Mr. McCaul. That is good. I mean, when we were--Congressman 
Duncan, and Cuellar, and I were over in Afghanistan and Iraq we 
talked to the generals there and we specifically raised the 
issue of: ``Would you be willing to provide these assets to 
DHS?'' and they were very agreeable to doing that.
    So any assistance or help we can give you in that effort, I 
think that is very worthwhile. In a tough budgetary time these 
are existing assets that we can leverage.
    Ms. Bucella. That would be wonderful. The only thing we 
would ask for consideration is also that the operation and 
maintenance and parts also is considered, because while, you 
know, they have some great air assets they cost a lot of money 
to maintain.
    Mr. McCaul. I want to throw out a scenario that I often 
worry about, and I know that Congressman Duncan shares this 
concern, and it goes back to Hezbollah operatives, the Iranian 
connection to Venezuela, these flights that Interpol can't 
check; we don't know what is on those flights. We have had 
lawmakers from Bolivia tell us that they think uranium is on 
those flights.
    The scenario of a weapons-grade uranium coming through one 
of these tunnels or smuggled across between the ports of 
entry--I think at the ports of entry we have the adequate 
technology to detect that, but it is really between the ports 
of entry where the human smuggling is taking place that it is 
not secure. That brought into the United States with something 
as simple as a stick of dynamite and you can create a dirty 
bomb in a major city. Is that a realistic concern?
    Mr. Dinkins.
    Mr. Dinkins. That is a very good question, sir, and I think 
the--one of the things that we, I think collectively, have 
realized in security business is that you can't just draw a 
line in the sand and say that is where we are going to hold the 
line. You have to address that threat before it actually gets 
to the line.
    I believe that has been our best success and what will be 
our best success is in actually preventing that and 
interdicting that before it actually gets to the desert or 
tunnel and they will actually even be able to get into the 
United States. There are many ways that you could get, you 
know--I am not a uranium expert, but there are many ways that 
you can make entry into the United States, but there is very 
limited amount of availability of uranium, and targeting that 
before it gets to the United States and dismantling those 
networks overseas, that is going to be our greatest success in, 
I think, believing--in preventing that from actually becoming a 
reality.
    Mr. McCaul. You know, not to invoke Hollywood, but the 
movie ``Act of Valor,'' you know, with the Navy seals, ends--
culminates with that scenario, which some people felt was a 
far-fetched scenario, and I am not really sure that it is. I am 
concerned that that could actually happen in reality and not 
just in the movies.
    I have got 20 seconds, but, Admiral Lee, you are going to 
join us, I think, on Thursday, with Governor Fortuno, at our 
hearing on the Caribbean, and I guess with my short time left I 
will just say I look forward to seeing you come back on 
Thursday.
    With that, I yield back.
    Mrs. Miller. I thank the gentleman and I thank all the 
panelists.
    I have one quick question before we close here. Admiral 
Michel, you were mentioning about the rules of engagement with 
the submersibles because--I am not sure exactly how you phrased 
it, but because you don't think there is a terrorist threat or 
we haven't had one so far with these submersibles you cannot 
use military rules of engagement for them and it reverts back 
to a local law enforcement-type of a apprehensive thing.
    That is disturbing to me. It certainly handicaps your 
ability to do, I think, what you need to do and what the 
country would like you to do, I think--my personal opinion--and 
I am just wondering whether or not you need additional 
authorities for such a thing or if you would like to comment on 
that. Perhaps you don't want to comment on that. It certainly 
is up to the Congress to think about it. But if you have any 
comment on that I would welcome that.
    Admiral Michel. I will comment on that. It has been a 
subject of vigorous--and remains a subject of vigorous 
discussion within the administration on how to treat these 
things. I mean, up until this point submarines--fully-
submersible submarines--diesel-electric submarines had only 
belonged to nation states. This is a diesel electric submarine 
that is run by a non-state actor, a transnational criminal 
organization.
    The current thinking within the administration and the 
marching orders that I have got is absent intelligence 
indicating otherwise that as long as we believe that these are 
still being used simply to move, you know, multi-million dollar 
loads of cocaine that they are a law enforcement problem, and 
as a law enforcement problem we as a Nation have chosen to 
treat those with law enforcement use-of-force rules, which is 
typically non-deadly force rules. So you can imagine trying, in 
a non-deadly force manner, to force one of these fully-
submersible submarines to the surface so you can arrest the 
occupants there for cocaine smuggling.
    So it is a challenge. I mean, you have hit the nail on the 
head, ma'am. It is extremely difficult for me to come up with 
any type of capability in a non-deadly force manner to force 
one of these submarines to the surface to----
    Mrs. Miller. I mean, I remember when the Coast Guard was 
not able to shoot at the fast boats, right, and then we gave 
you additional authority for those kinds of things. I mean, you 
need to be able to do your job we have tasked you with and if 
we handcuff you I don't think that is advantageous for the 
Nation.
    Would it require that the drug cartels are listed on the 
terrorist--as a terrorist organization? What if they were a 
terrorist organization? Then what could you do?
    Admiral Michel. Well, I hate to speculate because there 
is----
    Mrs. Miller. Okay.
    Admiral Michel [continuing]. A lot of discussion----
    Mrs. Miller. I am thinking out loud here.
    Admiral Michel [continuing]. Terrorist organizations, but 
if they were designated that could potentially be a different 
rule set. But obviously that all kind of hypothetical and would 
have to be discussed because that is obviously a very, very 
complicated subject matter.
    Mrs. Miller. Well, it is something I intend to pursue so I 
appreciate your comment on that.
    But we certainly appreciate all of the witnesses and your 
testimony today. It has been a very, very, extremely helpful 
hearing. The record will be held open for 10 days.
    With that, the subcommittee will adjourn.
    [Whereupon, at 11:21 a.m., the subcommittee was adjourned.]

                                 <all>

</pre></body></html>
